<html>
<title> - TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
   TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR
                           FISCAL YEAR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                      JIM KOLBE, Arizona, Chairman
 FRANK R. WOLF, Virginia            STENY H. HOYER, Maryland
 ANNE M. NORTHUP, Kentucky          CARRIE P. MEEK, Florida
 JO ANN EMERSON, Missouri           DAVID E. PRICE, North Carolina
 JOHN E. SUNUNU, New Hampshire      LUCILLE ROYBAL-ALLARD, California
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Michelle Mrdeza, Bob Schmidt, Jeff Ashford, and Tammy Hughes,
                            Staff Assistants
                                ________

                                 PART 6

                 OFFICE OF NATIONAL DRUG CONTROL POLICY
                     YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 61-357 O                   WASHINGTON : 2000

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi           ROBERT E. ``BUD'' CRAMER, Jr.,
 GEORGE R. NETHERCUTT, Jr.,                Alabama
Washington                              MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,             LUCILLE ROYBAL-ALLARD, California
California                              SAM FARR, California
 TODD TIAHRT, Kansas                    JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                   CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                       ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 ROY BLUNT, Missouri                

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


  TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  2000

                              ----------                              

                                        Thursday, October 21, 1999.

                 OFFICE OF NATIONAL DRUG CONTROL POLICY

                                WITNESS

GENERAL BARRY McCAFFREY, DIRECTOR
    Mr. Kolbe. Good morning. This hearing of the Subcommittee 
on Treasury, Postal Service, and General Government will come 
to order.
    We are very pleased this morning to welcome as our first 
witness General Barry McCaffrey, the director of the Office of 
National Drug Control Policy. He is a frequent visitor before 
this subcommittee, so he is not exactly new to us. But during 
our regular hearings, budget hearings, earlier this year, we 
indicated that we wanted to have some more in-depth discussion 
of the National Youth Anti-Drug Media Campaign, and in 
particular, as we have had an opportunity to learn more about 
this and hear more about this, to examine the role of 
programming content in the media campaign.
    Following General McCaffrey's presentation, we will be 
hearing from Susan David of the National Institute of Drug 
Abuse, NIDA.
    The goal I would like to accomplish this morning is really 
just to understand better the nuts and bolts of how the media 
campaign that this subcommittee funds is working and how it 
seeks to influence entertainment media content and how that, in 
turn, seeks to influence behavior on the part of those who we 
seek to influence.
    As far as the influence within the entertainment media, 
that has taken several forms. One is the active engagement by 
ONDCP and outreach to the industry to achieve accurate and 
supportive messages in the entertainment media, and the other 
is acceptance by ONDCP of entertainment content as a pro-bono 
match for campaign purchases of advertising time or space.
    I think when you testified in the budget hearings, General, 
last March, you said that the overall match for the campaign is 
about 102 percent and 109 percent for the broadcasting sector. 
And we understand from your statements and what we have been 
told by your office, that about 85 percent of that is what you 
call a hard match; that is, an equivalent amount of time given 
in public service announcements, time and space.
    Some, however, is a soft match. And by a soft match--we do 
sound like we are talking about campaign finance reform, don't 
we, here--between hard dollars and soft dollars here. 
[Laughter.]
    Soft match is, as I understand the definition, where a 
network wishes to get a match credit for conveying the ONDCP 
message in the context of entertainment programming, such as an 
episode on a program like ``Dawson's Creek'' or ``The Cosby 
Show.''
    You have also testified that thanks to this effort, the 
campaign's strategic messages have been greatly expanded and 
supported in more than 50 TV scripts and incorporated science-
based anti-drug story lines and that at least 32 of these were 
on the shows that young people watch most frequently and using 
the stars, the TV stars that most of them know about.
    So what I hope we can, today, learn is more about how this 
match program works when it comes to just the nuts and bolts of 
how it works, but specifically, of course, about the 
programming content and about the entertainment industry 
outreach element of the campaign. I know you also have a very 
extensive program of meeting with them and discussing these 
issues.
    So we hope to come away today with an understanding of the 
practices that are being followed: How the campaign values 
programming and other media content for the purpose of matches 
and how ONDCP and its contractors assess the impact these 
efforts have on the success of the campaign.
    I think these are appropriate questions because our role is 
to fund this campaign and we, indeed, have a responsibility--
and it is a large amount of money, and the public feels that we 
have a responsibility, I believe, for us to look at the issue 
of how well this program is doing and specifically how we are 
going to measure how well it is doing.
    But it certainly does also raise I think some other broader 
questions. And while I have no answers to these, and I am not 
here today on any kind of a mission, I just want these 
questions to be out there on the table for us to consider, and 
those have to do with the appropriate form of engagement 
between a government agency, such as ONDCP and the 
entertainment media industry. In particular, I hope we can get 
some understanding of whether financial incentives of leverage 
that is offered by the advertising campaign results in some 
kind of pressure on writers or producers to alter story lines 
to fit a particular message, even if the intentions are very 
positive or even benign.
    Certainly, our concern, as a subcommittee, is to see that 
the campaign is effective in reducing the use of drugs by our 
young people, and we want to do that with whatever means that 
we can. But we also want to do it within the context of a free 
media, free press, free society, and I know that you certainly 
share those goals.
    So I hope that with this we can clarify some concerns that 
may have been raised about how we achieve these desirable ends 
that we all seek. I think it is going to be an informative 
hearing for us.
    And before I ask General McCaffrey for his statement, let 
me turn to my good friend and ranking member, for whom I want 
to say once again publicly, thank you for your assistance in 
getting our appropriation bill passed. And it is nice that ours 
is enacted into law, so that we can have this hearing and not 
be worrying about getting that done.
    Mr. Hoyer.
    Mr. Hoyer. We agree on that. Thank you. And I thank the 
chairman for his leadership in getting us to a point where the 
bill could pass and the President could sign it. It was a good 
effort.
    I want to welcome General McCaffrey, and Susan David and 
others of you as well to this hearing. I think this is an 
important hearing. General McCaffrey has been a visionary in 
the fight against drugs, and the National Youth Anti-Drug Media 
Campaign is a major component of this strategy.
    I have a prepared statement, Mr. Chairman, that I would 
like included in the record at this time. But let me make a 
comment. I think this is a very important oversight hearing, 
and I thank the chairman for scheduling it. And like the 
chairman, I not only vote for, but believe strongly that one of 
the hallmarks of America is the First Amendment, and we have 
the freedom of speech to say things we do not agree with and 
things that ought to be said.
    On the other hand, I think that does not mean the rest of 
us do not have the right to freely criticize in a free market, 
the expressions that we think are harmful. I think that is what 
a free market is all about. And there is clearly concern that 
we may be spending $195 million or $185 million annually on 
this program. But if there are billions of dollars being spent 
to deliver contrary messages which undermine that message, that 
is not helpful. And there needs to be, I think, some discussion 
about the concerted effort.
    Now, I want to make it clear that I do not believe the 
entertainment industry is spending billions of dollars to send 
a contrary message, for those of you that represent the 
private-sector media or entertainment outlets. I know we have 
ABC, CBS, Warner Brothers, NBC, and others represented here. 
But it is to say that we, as a country, need to think together 
as to how we can send a positive message to our young people as 
to how they can most positively act in their own lives to 
enrich their lives and to enrich our community. We know that 
there are a lot of negative messages out there.
    And, fortunately, our young people are very connected 
today, more connected than they have ever been before in the 
history of the world. They get more information now than any 
previous generation has ever gotten, they get it quicker, and 
they get it in a freer market than we have ever had before, the 
Internet. They are all a mouse click away from getting whatever 
information they want. And that is of concern.
    And we, as I say, as a community need to think about this. 
And my perception is the entertainment industry, as we are, are 
concerned about the welfare of our children, and our families 
and our country. And so it is in that context I think we need 
to work and think about this together, and I am very interested 
to hear how we are doing that cooperatively, not through 
coercion, but through cooperation. And I think that is the key.
    Thank you, Mr. Chairman.
    [The information follows:]
Statement of Congressman Steny H. Hoyer, Treasury, Postal Service, and 
                    General Government Subcommittee
office of national drug control policy--oversight youth anti-drug media 
                                campaign
    I'm very pleased to welcome General Barry McCaffrey, Director of 
the Office of National Drug Control Policy, to testify before the 
subcommittee on the use of programming content from the entertainment 
media as a component of the ONDCP National Youth Anti-Drug Media 
Campaign.
    I am also pleased to see Susan David from the National Institute of 
Drug Abuse who will testify later this morning.
    General McCaffrey has been a visionary in the fight against drugs 
and the National Youth Anti-Drug Media Campaign is a major component of 
his strategy.
    When you last testified, we learned of the positive outcomes from 
the first phase of the campaign. Your goal of reaching 90 percent of 
the overall target audience with four anti-drug messages was exceeded 
in each case.
    Over the summer we received the results from phase II of the 
campaign which showed that the anti-drug campaign's message has begun 
to influence attitudes. The final report on phase II showed that the 
percentage of youth who thought the ads ``Made Them Stay Away From 
Drugs'' increased from 61 percent to 69 percent.
    The percentage reporting that they ``Learned About The Dangers of 
Drugs'' from TV commercials also increased from 44 to 52 percent.
    Phase III is now under way which entails a more integrated 
communications approach at the national level including partnerships 
with various media outlets such as TV, radio, movies and retail. These 
outlets are powerful vehicles that can be used to convey the anti-drug 
message to our young people.
    Our children have more information available to them than anytime 
in our history. They are accustomed to a world of information through 
television and the Internet which is just a remote control away. So 
what children are watching on TV and reading on the Net is very 
important.
    General McCaffrey has done an excellent job in making the 
entertainment industry a partner in creating a solution to drug use 
among the youth of this country. I am happy to be here today to learn 
more about it.

    Mr. Kolbe. Thank you.
    General McCaffrey, please proceed. Obviously, we will be 
happy to place your whole statement in the record, if you wish 
to summarize it or however you want to proceed.
    Thank you.
    General McCaffrey. Thanks, Mr. Chairman, to both you and 
your committee members, and Congressman Hoyer, in particular, 
for the opportunity to come down and lay out some of our own 
thinking. And I would like to put that written statement in the 
record.
    These hearings give us a tremendous incentive to be blunt, 
to write down and document where we think we are on these 
issues. The minute this hearing is over, we put these 
statements on the Internet allowing the press and the academic 
community, to watch this issue very closely. So it is really a 
good chance for us to organize or reorganize our own thinking 
and make sure we know exactly what we can say in an ethically 
sound way about how the campaign is evolving.
    You have some very important people in the room today, some 
of them testifying, but all of them will be available to your 
committee's staff today or in the following days. Rich 
Hamilton, Zenith Media, is here. We owe Zenith a big debt of 
gratitude. Bates and Zenith got this thing off the ground when 
Alan Levitt and I and a handful of people, including 
Partnership for a Drug Free America, Sean Clark and Jim Burke, 
were trying to sort out where to go.
    The reason Rich Hamilton, CEO of Zenith, is important, is 
because he did the first network negotiations and developed 
this notion of the pro-bono match. I think we learned a lot 
from Zenith during that period, and we are very grateful.
    Dr. Tony Bigland, Oregon Research Institute, is here. You 
know he sits on our Behavioral Science Change Panel. He is an 
expert in the area of youth development. He has become a major 
factor in trying to help educate the most creative community on 
the face of the Earth, the producers, the writers, the 
directors who create this programming content.
    Ogilvy & Mather and Fleishman Hillard are represented here. 
Shona Siefert, the senior partner, who really works our 
account, is a brilliant, creative person. We have been very 
proud of the way the firm has managed their responsibilities. 
Bev Schwartz, vice president of Fleishman Hillard is here. They 
have done superb work with a very small pot of money. They have 
about $10 million, essentially. But I think a few years from 
now we may find that their impact was disproportionate to the 
amount of resources we put into it.
    You are going to have Marcy Kelly testify from Mediascope. 
They have also done some important work. We should not talk 
about these issues in an anecdotal fashion only. We need some 
data. There are substantial resources you have given us. And if 
I may, let me underscore our admiration for the way this 
committee got their work done and shaped a bill that was signed 
into law.
    So we are starting our third year of responsibly dealing 
with a matter of enormous import. Marcy Kelly and her people 
have quantified what we are talking about when we look at the 
impact of the media on shaping youth attitudes. In January, 
they are going to put out another very important document when 
they analyze the impact of broadcast television. We very much 
appreciated her creative work.
    Most of this media campaign is focussed on primarily 
shaping youth attitudes and the attitudes of their adult 
mentors. But it also connects the problem of drug abuse to 
community organizations in America. Sue Thau is here 
representing Major General Art Dean, Chairman and CEO of 
Community Anti-Drug Coalitions of America. An enormous amount 
of this program content now has a telephone number or a Web 
page. And that connects us, as citizens, not to a national 
agency, but back to a regional partner. When you call in 1-800, 
whether you are worried about your 16-year-old daughter's 
compulsive drug use or you are looking to get engaged, we 
vector you back to Community Coalitions.
    Clarke Moorehouse is here from Channel One Network. As you 
know, they deliver satellite coverage to over a third of the 
Nation's teens daily in classrooms. When we talk about program 
content, they have done some of the best work we have seen. 
They developed a show that tried to capture the notion of 
children of addicted parents. The children are all sitting in a 
classroom. If you tried to get at that audience through 
broadcast television, it would be very hard to justify the 
approach. We think this is a kind of pro bono work, matching 
creative content programming has a big impact. The Channel One 
Network has also done one on women involved in drug-related 
crime in prisons. This work has a tremendous impact through 
refinement of programming content.
    Robbie London is here from DIC Entertainment. As you know, 
they are owned by Disney. They helped us develop a website for 
children.
    Rogers and Associates are here represented by Sarah Ingram. 
They have been working with our entertainment and celebrity 
outreach. And I believe you have some questions along those 
lines.
    Steve Salem from Boys & Girls Clubs is here along with 
Kathleen Sheehan from NASADAD, and the National Drug Prevention 
League, represented by their chairman, Kathleen Wingfield. We 
thank all of the partners who either you invited here or come 
because they have been so fundamentally involved in this 
effort.
    Let me, if I may, run through some charts, Mr. Chairman, 
and talk to some of the issues. First chart.
    Again, to remind all of us, everything we do in this 
program, which is less than 1 percent of the $17.8 billion that 
the Congress provided in the fiscal year 1999 act relates to a 
national drug strategy, that I have to have approved by the 
administration, signed off on by OMB, and I bring down to 
Congress for consultation.
    So we are back on Goal Number 1: How do we educate and 
enable America's young people to reject illegal drugs, as well 
as alcohol and tobacco? That is the heart and soul of the 
campaign. It is beginning to work. Donna Shalala and I did 
release last year's household survey demonstrating about a 13-
percent drop in adolescent drug use in the 12- to 17-year-old 
population. We still have a million kids using drugs. We have a 
huge problem. Drug use has gone up dramatically in the last 
year. Despite this increase we think we are moving in the right 
direction. And, clearly, the program that we are discussing 
this morning is going to be a huge part of that.
    Next chart. Again, what is the basis of this? A lot of this 
is not just academic data, it is historical data 
fromPartnership for a Drug Free America. By shaping youth attitudes, 
youth behavior you can affect. Now, when you ask children, ``Do you 
personally disapprove of drugs, yes or no? Do you personally fear drug 
use threatens your development, yes or no?'' those numbers are 
indicative of the kind of trailing behavior that you can expect.
    And as we look back through history, we see that when we 
get energized, when we get outraged and we communicate with 
youth through a variety of means, drug use goes down. In fact, 
it is going down again. I would argue, Mr. Chairman, our real 
challenge lies in the hearings five years from now, when we 
have had a major impact on youth drug use rates. At that time 
how will we maintain the energy to focus on each new generation 
of children as they leave the sixth grade and start being 
exposed to gateway drug-using behavior in American life? And 
that is where drug use is happening, in middle schools in 
America.
    Next chart. This chart basically says the slope of the 
curve is going down, however not fast enough for any of us. But 
I must admit we are somewhat surprised. I thought there would 
be more like a two-year-plus lag time between multiple programs 
and impact. Instead we are seeing a change in the direction of 
that slope.
    Next chart. This chart represents what you told us to do, 
and this is really my charter from you, the board of directors, 
on what we are going to do with the money you give us each 
year. More importantly, we are going to see the negotiated 
matching aspect of those funds as being as much a part of our 
efforts as are the appropriated dollars.
    You told us to not only go out there and deliver a message 
on target, but to make sure I can come back here and explain, 
with scientifically based studies, why we think we are doing 
the right thing, where we see the program going awry, and how 
we can give steering instructions and modify it.
    Susan David from the National Institute of Drug Abuse will 
testify next. NIDA has a $7 million a year program to evaluate 
what we are doing. It is brilliant in conception. This is 
really break-through scientific work on how to understand 
social change. And it is not only taking a baseline sample. I 
know Dr. David will talk to this issue, looking at the better 
part of 8,000 respondents, and then every six months for four 
years going back out to measure it. But they are also going to 
go into 3,000 families and four different media markets and try 
to do longitudinal analysis of how that family is affected by 
this media campaign and all of its components. I do think we 
are going to try and deliver rational feedback to Congress on 
how we are doing with your resources.
    We have also taken very seriously the other components of 
this: the entertainment industry collaboration. I will talk 
more about this; interactive media; public information 
corporate sponsorship, which we really have not gotten off the 
ground adequately; and partnership and alliances with 
organizations which are doing pretty well.
    Next. Hopefully, I will not say much to this chart. It is 
sort of mind-boggling, but it is meant to underscore the fact 
that this is not the 1980s, where people develop some TV 
material, 30-second, 15-second spot ads, throw them out there 
and hope they are played in some market at some time. The chart 
clearly states that we took congressional guidance very 
seriously. That this is an integrated communications campaign, 
that is a 360-degree approach to surrounding the target 
audience and their adult mentors with a scientifically based 
message that we will evaluate as a process and change the 
message to keep it on target.
    Next. Here is the problem, and Marcy Kelly can talk to it 
in greater detail than I can. But just as snapshot, we do have 
a problem in popular media. And I am not getting at the whole 
notion of the multi-billion dollar advertising effort, which is 
clearly affecting youth attitudes relating to alcohol 
consumption and cigarettes, I am referring to the notion if you 
are watching movies or listening to music, how you see the 
consequences.
    I think there has been one sort of false charge. I do not 
believe the media glamorized drug use. I think what you and I 
need to be concerned about is to what extent drug abuse among 
youngsters is normalized, to what extent do they think they are 
the only ones not engaged in this behavior and that it is 
acceptable and low risk.
    So the stat in there that I am most concerned about is only 
12 percent of the portrayals of drug use showed long-term 
consequences. As I will respond to during the questions phase, 
I think that is what we are worried about. We have gone out to 
this creative industry and said, we are not arguing for a 
message, we are arguing for the message to look like what drug 
abuse really is. We want you to show the kids and families who 
get involved in compulsive poly drug use behavior. If the 
message is accurate, it will make the argument that we support.
    You might note also that music tends to be a bigger 
problem. I would, just as a broad generalization, suggest to 
you, Mr. Chairman, that the TV industry is a pretty responsible 
group, they are listening very intently, and they want accuracy 
in the way they depict this problem.
    Entertainment outreach goals. This chart portrays, in bar 
graph form, both in songs and movies--I think I will leave this 
to Ms. Kelly to talk to later--entertainment outreach goals. 
Here are the four goals we have outlined for ourselves.
    Next, let me talk very briefly about some of the 
entertainment outreach results. We have mentioned the whole 
notion of 50 TV scripts incorporating anti-drug messages. 
Probably a better number is that there are 350 million contacts 
with a person and a message. That is what the impression means 
up here. We have seen all of the TV networks get involved. All 
seven TV networks have produced PSAs, and have been enormously 
effective.
    We are, I might add, in the matching component, 
representing 37 different organizations. One hundred ninety-one 
thousand pro-bono match PSAs have been aired. So we have, in 
fact, been conducting the largest underage anti-alcohol abuse 
campaign in history. And it is pretty well put together. As you 
know, we can talk about the Ad Council's enormous contribution. 
The American Advertising Federation, every three months has 
been developing a reel, getting it out here to the media; TV 
stations, radio, and print. They are playing this material, and 
they are not putting it on at 2 o'clock in the morning. They 
are not getting credit for it if they do it. But I would, if I 
can, underscore their cooperation and the energy they have 
brought to bear on this process.
    Finally, let me just say campaign message delivery rates 
have been spectacular. As you know, we did a pretty decent 
Phase I evaluation. We did a 12-city test across America. We 
had 12 control cities. We did get data. We were after 
awareness. We found surprising impact on actual youth 
attitudes. We did a national one. We went national, andused 
largely existing Partnership for a Drug Free America material. We got a 
huge impact on the target audience. Rather than four times a week, 90-
percent market penetration, we got up to the rates you see on the 
national test Phase II.
    As of 6 September in the print market and 20 September in 
the TV-radio market, we have gone nationwide. Directed by 
Ogilvy & Mather, and Fleishman Hillard, ours is an integrated 
campaign using 11 languages, and 102 different media markets, 
and we are starting to bite into the problem. We are getting a 
tremendous exposure rate. We are going to evaluate this and 
talk to you on an interim basis as we see these results being 
developed.
    Mr. Chairman, with your permission, let me show you a 2-
minute video out-take of seven different programming content. 
We diced it up to save time. But it will give you an insight 
into some of the things that are going on right now on 
television, in particular.
    Go ahead and show it.
    [Video played.]
    General McCaffrey. We can go into some detail, Mr. 
Chairman, how we go about dealing with the industry on these 
programmatic decisions. There is an industry standard on how 
you credit content. It is a pretty conservative one. It 
certainly gives us enormous leverage for our dollars. A 
generalization is, if we had an hour-long show that was 
completely on-platform, on-message, we would give them credit 
for five 30-second ads. If it was a 30-minute show that was 
entirely on-message, it would be three 30-second ads. By and 
large, programming credit is one 30-second ad where we get one 
of a scientifically accurate message in the correct platform 
into the show. And in some cases, if there is also a PSA at the 
end of the show, they will get another 15 seconds credit. That 
is just a general description of the mechanical way that these 
are added up in terms of media-matched dollars, a pretty 
conservative way of going about it.
    And on that note, Mr. Chairman, let me, if I may, end these 
opening remarks and respond to your own interest.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kolbe. Thank you very much, General McCaffrey, and I 
think some of what you said is very helpful here.
    If I could, I would just like to go back first to a 
couple--I have several specific questions I wanted to get to, 
but a couple things on the charts that you showed there. I 
think it was really the first one dealing with the graph 
showing drug use. Yes, that one there. Two things that strike 
me about that is the almost precise and direct correlation 
between the actual--the drug use, the red line, and the other 
two, as the other two is the perception of the risk and the 
disapproval--as the perception goes up and the disapproval goes 
up, the drug use begins to come down.
    The second point I would make is that by 1997, when you are 
at use, at levels of 90 percent, there really was not much 
place else for it to go at that point, but down. I mean, you 
could not really get up much higher than where we were, could 
we? It was really pretty staggered.
    General McCaffrey. Remember, we have changed the scales so 
you can see the slope and the change more easily, but even 
though drug use among eighth-graders tripled between 1992 and 
1995, and overall population use doubled, it never got worse 
than half as bad as it was in the early 1980s. So we could have 
gotten worse by far.
    Mr. Kolbe. It is the right-hand level there.
    General McCaffrey. Right.
    Mr. Kolbe. But there does seem to be a direct correlation. 
I guess the other point I would make there is that while we are 
seeing certainly some improvement here, it would, would you not 
agree, that it is awfully early to make any kind of definitive 
judgments about our success at this point?
    General McCaffrey. No question. No question.
    Mr. Kolbe. That goes to the other one about whether or not 
we can really tie it directly to the program that we have.
    General McCaffrey. I think we do know the answer to that 
one. We cannot, because that 13 percent reduction last year was 
only influenced--six months of that data was even possibly 
influenced by the national----
    Mr. Kolbe. So there are other factors at work at this 
point.
    General McCaffrey. Right.
    Mr. Kolbe. You referred also to alcohol and tobacco. We 
have had some discussion. You know, that has been a major issue 
in this Subcommittee, as to whether or not this ought to 
include alcohol and tobacco. We have a massive campaign now--
funded thanks to tobacco settlements in states--a massive 
campaign going on on tobacco use among young people. In my 
state certainly it is a huge campaign, far bigger than any drug 
campaign is. I have some concerns about whether or not we are 
diluting what I think is a very important message on drugs by 
trying--I know it is gateway, I know the gateway issue--but 
since we have little enough funds here to spend on this 
campaign, how do you make a decision about whether or not we 
focus on the alcohol, tobacco, as opposed to the hard drugs?
    General McCaffrey. Well, of course, Mr. Chairman, our 
viewpoint has been that by law we should not spend appropriated 
dollars on anti-alcohol and tobacco underage ads, and we are 
not. It is part of the matching component. And it has been 
significant. As an example, in the last year it was about a $13 
million impact, more than 11,000 PSAs were devoted to underage 
alcohol use.
    The challenges, as we discussed before--and I am enormously 
sympathetic not only to the gateway notion about underage 
alcohol abuse, but the flat statement that the biggest problem 
right now an adolescent will probably encounter is underage 
drinking, in terms of vulnerability to drunk driving, sexually 
being exploited, and being involved in youth crime. It is a 
huge problem in and of itself.
    The challenge to us would be if we try it--first of all, if 
we took the existing $195 million and tried to counter underage 
drinking, we do not yet have a research base upon which tomove 
forward. In addition, we would be running directly into a multi-billion 
dollar advertising campaign that correctly portrays adult use of 
alcohol as being legally and socially acceptable behavior. This is a 
behavior with which most of us do not have a problem, and do not 
encounter behavioral and legal and social problems. So if we are going 
to do that in coming years, and I would not argue against it, I think 
many of us feel it would be better to situate that approach in an 
agency like the CDC or SAMHSA, and to have a campaign based on 
research: how do we talk to young people about a behavior that is legal 
and acceptable for their mom and dad to engage in? It has got to be a 
different approach.
    Mr. Kolbe. Well, that leads me right into the specific 
questions that I wanted to ask.
    So that in terms of your soft matching, than alcohol/
tobacco messages are included and get the same rating, same 
credit, the same degree of credit?
    General McCaffrey. Absolutely, sure. And also, messages 
that are helpful to creating a no-drug-use environment for 
children, and parent-effectiveness ads. Some of the messages 
that are validating--I think there are 37 organizations if I 
remember correctly, including 100 Black Men, YMCA, et cetera, 
where you have got somebody communicating with young people or 
with their adult mentors. The message persuaded by the 
evidence, helps create a no-drug-use environment.
    Mr. Kolbe. And I have a series of other questions I will 
come back to in my second round. I think before we break for 
what I believe is just a general vote, and I think we will have 
quite some time after that before we have any other votes, so 
we will be able to complete the rest of this hearing. Let me 
call on Mr. Hoyer for some questions.
    Mr. Hoyer. Mr. Chairman, at this point in time I am going 
to pass. I do not know whether any of my colleagues have--I am 
coming back. I do not know whether they will be able to come 
back.
    Mr. Kolbe. Okay. Let us see. The next one here is Mr. 
Price.
    Mr. Price. Well, let me just quickly ask a question, and 
then we will try to come back. I need some clarification as to 
the complementary campaigns that you were describing, and the 
extent to which the message of those campaigns is actively 
coordinated through your office or elsewhere, to what extent is 
there an attempt to achieve some kind of consistent 
complementary message. I understand that the ancillary 
campaigns do involve questions of alcohol use, for example, and 
you do not do that with the appropriated funds. But to what 
extent is this a coordinated complementary message? And are 
those ancillary campaigns included in your message delivery 
rates, the figures you gave us in your initial presentation, in 
terms of figuring out what the exposure is and the extent of 
these ads being seen by young people? Are those figures 
inclusive of the ancillary campaigns?
    General McCaffrey. Well, I think part of the last question 
is the easiest one to respond to. I think we got excellent 
data, tracking what is played by who, when, and what market. So 
whether it is an appropriated dollar or a non-appropriated 
dollar, there are corporations out there that electronically 
track this sort of thing. Stations do have to turn in 
affidavits, for example, on appropriated funds, or for that 
matter, for the matching credit. They cannot get away with 
playing it at 2 o'clock in the morning, and saying, ``Well, 
that is your match for prime-time TV.'' So we do have pretty 
good data, and we do include that.
    For the target audience, it does not matter whether you 
heard something from the YMCA youth program with materials 
included in their youth outreach, or you heard it on a paid 
national TV Ad.
    Mr. Price. But the message delivery rates that you gave us 
for Phase II----
    General McCaffrey. We pull them apart. We disaggregate 
them, and then--but we will show you the total impact on target 
includes both aspects, but we can show----
    Mr. Price. The figures you gave in your presentation, the 
National Test Phase II figures, are just the ads from the 
appropriated funds; is that right?
    General McCaffrey. Well, I think that chart had both of 
them, if I remember. It has both the----
    Mr. Price. That is my question. Is it a combined figure or 
is it----
    General McCaffrey. I think we show both of them separately, 
do we not? No, we wrap them up. That is both the appropriated 
and matching component ads. But we can disaggregate it, and 
then disaggregate that data and try and show you the 
contributions of each component.
    The place you get into difficulty is when you go to a 
``Cosby'' program content ad, you can say who watched it, but 
now it gets a little more difficult. We give him credit, let us 
say, on that one, probably for one 30-second ad at the market 
rate for that show. But had we actually made that ad, he might 
have charged us a million dollars for his personal involvement 
in it. So I would suspect this is a very conservative 
accounting method by which to determine how much impact on your 
audience are you getting.
    Mr. Price. Right. I see in your longer statement you do 
have a more explicit breakdown.
    General McCaffrey. Yes.
    Mr. Price. I am sure your accounting method is conservative 
and responsible. What I am trying to get at here is the impact 
and the extent to which these messages really are reinforcing 
each other.
    General McCaffrey. Absolutely. And there is a coordination 
system. In the paid component, of course, it is easiest, in the 
sense that Ogilvy-Mather, working through Partnership for a 
Drug Free America, there is a creative review committee. There 
is a Behavioral Science Expert Panel. There is a focus group 
for ads before they go final. They are tracked in their impact. 
They are modified or pulled, as we see their effect on the 
target audience. Pretty decent following of how the creative 
process works.
    But again, for the matching component, the American 
Advertising Federation, in all of our 102 different media 
markets, has to pull together a committee. So if you submit a 
PSA as 100 Black Men or YMCA or Boys & Girls Clubs, a message, 
and produce one then submit it, it has to pass scrutiny for 
being on-target in the strategy. You have to be able to explain 
the issue you are addressing, and they have to be 
scientifically valid messages.
    Mr. Hoyer. Will you yield a minute?
    Mr. Price. Yes.
    Mr. Hoyer. Following up on that, in your statement on page 
12, you have ``Paid in Anti-Drug Match'' and then ``Paid All 
Match.'' Does ``All Match'' include alcohol and other 
substances? Is that what you are talking about?
    General McCaffrey. Yes.
    Mr. Hoyer. Okay. Excuse me. This is a former statement, 
your October 14th, 1999 statement. That is last week's 
statement before the Mica Subcommittee. I am not disaggregating 
your statements quickly enough. [Laughter.]
    But I presume last week's statement is still valid.
    General McCaffrey. They had better match up.
    Mr. Price. I know we need to go vote, Mr. Chairman. Thank 
you very much.
    General McCaffrey. Let me also offer, Mr. Congressman, I 
will give you a copy of ``Procedural Guidelines for Broadcast 
and Cable Network Branded PSAs,'' and there are ten criteria. 
You have to say you are targeting one of the ten eligible 
messages. There is a review process, and we will track when and 
how their message is played.
    Mr. Kolbe. Thank you, General. We are going to recess 
briefly for this one vote, and we will come back immediately 
afterwards, and we will begin with Ms. Northup.
    [Recess.]
    Mr. Kolbe. We will resume the hearing, and we will begin 
with questions by Ms. Northup.
    Ms. Northup. Thank you, Mr. Chairman, and welcome, General 
McCaffrey.
    As the mother who has a sixth child, who has six more 
months till he graduates from high school, then I will be over 
that hump. I think having teenagers, I can tell you, I thought 
until now was a great thrill, especially around the age of 13--
it was like being the pied piper. They wanted my approval. They 
followed behind me. It was fabulous. But from that point on, 
the fear of what was going on with their peers, the messages 
they were getting, the music they were listening to, the 
arguments over whether we were going to have this tape in our 
house or not, it just wears you out.
    And I have to say that drugs are a huge concern. But 
everything you see on these charts is exactly my experience. I 
remember when my freshman and sophomore boys, number three and 
four boys, came home from my college after their freshman and 
sophomore year, and said, ``What is going on? The drugs in this 
city, you cannot go to a party, you cannot go any place. My 
friends that I was sure never, ever, ever would touch it, 
are,'' and it was heart wrenching. And we had so many 
conversations at the dinner table. And the youngest child then 
was going into his eighth grade, and I will never forget, he 
spoke up one night and said, ``And you will never guess what 
happened at the church picnic Saturday night. So-and-so was 
arrested for marijuana.'' This is a kid going into eighth 
grade. And it was like the whole world was crumbling.
    Now, he says drugs are not so prevalent. It is not so cool. 
All of my kids are telling me the same thing, that there is 
just not the general acceptance, and I think we are making 
progress. I realize it is just a slight blurb on there, but it 
does sort of reflect my experience.
    But drinking is another huge, enormous problem, and I guess 
my question is: how do we fashion the messages here? Because at 
least my kids were hearing from everybody but their peers, 
drugs are always bad. It is wrong, it is bad at any age, at any 
time, at any place. It is not something you can do next year, 
in two years. Drinking is something that they expect they will 
do. And even though, knock on wood, I think this high schooler 
is really a good kid, he has gone now to three college 
weekends, being recruited for a team, and at every one he was 
taken to parties where everybody there, by his estimation, had 
a drink in their hand. I have always fought with my high 
schoolers, because we do not give any drinks to our kids, nor 
do we ever let anybody in our house that has a drink. I say, 
``That is the end of the party if that ever happens.'' But they 
routinely have parents that say, ``Oh, we know your friends are 
going to drink, so when you come over, they can have some beer, 
but we are going to take their keys, and they have to spend the 
night.''
    You see MADD, who sends home the contracts, sign a contract 
with your high schooler, saying, ``If you ever cannot drive 
home from a party, you can call us. We will come get you. No 
questions asked, no repercussions.'' You know, and I say to my 
kids, ``I am sorry. There will be repercussions. There will be 
questions asked, and you are going to stand here and talk to me 
every night when you come in, and kiss me goodnight, and I am 
going to do the best I can to enforce a no-drinking policy.''
    So how do you fashion a drinking message? Have we done the 
research? What works? Will anything work when it is on 
television? When every single person in this room knows that 
19-year-olds that are at college have it going on every minute 
all around them, and nobody intervenes? I mean, if parents are 
saying, ``Oh, it is Christmas, have a glass of wine,'' is 
anything we put on TV, is that going to be effective?
    General McCaffrey. Well, your general line of discussion, 
Madam Congresswoman, really warms my heart, because at the end 
of the day, it seems to me it is what mom, the homeroom 
teacher, pediatricians and a minister says that counts much 
more than any other influence on youth attitude. So if you are 
hearing consistently ``in our family'', ``in our school'', ``we 
do not drive drunk, we do not use drugs'', I think it shapes 
attitudes more so than anything we put in the media.
    Having said that, at the end of the day, alcohol abuse by 
underage drinkers is a huge problem. You listen to Secretary 
Shalala, who is temporarily serving as a Government official, 
she is essentially a teacher, a college president, and she will 
argue, hands down, the principal problem she faced as an 
educator throughout her career, was the abuse of beer and in 
combination with marijuana, and that that is the dominant 
reason why kids do not learn, drop out of school, do not play 
sports, end up pregnant, end up vulnerable to physical assault. 
It is a huge problem.
    If there is one group of people in America that I have 
enormous angst about, it is university leadership, who allow 
kids to go to school in an environment, where if we acted like 
that in the armed forces, they would relieve us from command. 
They have abdicated their responsibility to create safe, 
responsible environments for young people under their charge. 
And I think it is starting to change, but that is a target that 
many of us have----
    Ms. Northup. But how do we advertise when two of my kids 
have gone to school, Miami of Ohio in Ohio and the state law 
is, if you are out for dinner with your parents, you can 
legally have a drink when you are 18.
    General McCaffrey. Well, we do need a better research base. 
You make a good point. We have to have the market, do the 
studies to understand better what arguments will affect 
attitudes. You cannot use the same argument as the one devised 
against methamphetamines. Meth is an easy target.Pot for a 12-
year-old is a tough target. And we are more worried about inhalant 
abuse and marijuana and beer among middle-school kids than we are 
methamphetamines among 35-year-olds. We do need better research, and 
then we need to make sure we are talking to kids in terms they can 
understand. You cannot equate dad having a six-pack and watching 
football with smoking marijuana. You can tell a youngster, ``You will 
look stupid if you consume alcohol under age.'' You can suggest to 
parents that the environment is, ``If you are going to drink, you are 
not driving our car.'' So you need to find a message that is relevant 
to young people, and certainly it would not be on categorically saying 
that alcohol is bad, because we know it is legal and it is acceptable, 
and most people do not encounter a problem.
    But I guess I would sign up for research along the lines of 
what are the most effective ways of crafting messages to young 
people about not drinking?
    Mr. Kolbe. Thank you. Mr. Peterson.
    Mr. Peterson. To just sort of follow along here, I come 
from a very rural setting, and I think in rural areas we have 
sort of peaked. I mean, I think there is no community now in 
rural America that does not have complete drug availability, no 
matter what it is, and that was not true a few years ago. The 
pipeline has reached everywhere. Part of our problem is, I 
think the feeling out there is that all the narc units that are 
very successful, do not work out there. They work in the 
suburban areas. I think the sellers realize they are a little 
bit enforcement-free out there, and so it is a safer place to 
sell drugs. And so, in my view, it has intensified the 
availability of drugs.
    I had 200 young people together two weeks ago, and I had a 
panel of experts, DEA people, drug and alcohol rehab people, 
who spoke to them, and we have been doing this for a number of 
years. They literally attacked them about legalization, selling 
legally. I mean, it was contrived. These kids had organized, 
but it was an aggressive debate about drugs should be legal, 
and of course, that is an assumption that they are not harmful.
    And so I think one of the messages we have got to really 
hone in on is the harmfulness. You know, people assume that 
marijuana is not harmful, that it is really no different than 
smoking a cigarette. And, of course, that is very harmful too. 
I mean, more people die of tobacco than anything.
    But I guess I would be interested in your comments on that, 
but I have found that in a couple settings now, where young 
people are arguing for legalization because drugs really are 
not harmful.
    General McCaffrey. Well, it is very disturbing. I talk to 
young people all the time, and there is a very active minority 
who have that feeling. I would argue a greater problem, and one 
that we are addressing in this media campaign, is that many 
young people, more than half, in my view, strongly believe that 
although they are not using drugs, most other youngsters are. 
So I think the whole notion of normalization of drug use is the 
heart and soul of one of our concerns.
    Part of countering that is to make the argument that these 
drugs are harmful. I agree. We have not adequately done that, 
particularly with marijuana, which is widely argued by some to 
be a benign substance, when in fact--and you should ask our 
NIDA panelist--Dr. Alan Leshner, Secretary Shalala can document 
that we think marijuana is a harmful drug. We do not agree. We 
think it causes cancer, that it is harmful to the brain, that 
it causes all sorts of social problems, learning problems. We 
are vehemently opposed to it. We think particularly when it is 
done more so by adolescents, that we see enormous statistical 
correlation between expansive use of marijuana in early years 
of development and later on compulsory drug use problems. We 
can make those arguments on scientifically sound bases, and 
provide them to adult mentors to use in shaping youth 
attitudes. That is a big contribution of this media campaign.
    But to give the message, not in a moralistic lecturing 
tone, but to make sure it comes across the Internet, or in this 
wonderful classroom television environment, and to get to them, 
not in the twelfth grade year, but in the ninth grade year. So 
I think a couple years down the line, you are going to see some 
major impact out of this campaign.
    Mr. Peterson. Another area I guess I am interested in, I 
think sports figures are still the idol of our young men. And I 
guess the one I will pick on the most, and I am an avid 
football fan, I think the National Football League has been a 
disgrace. Every year prominent players have drug altercations 
and continue to play football. In fact, the Steelers had one 
suspended last year who took an over-the-counter drug that was 
illegal, and he got suspended for four months. There was a 
player for another team, who had actually been in a drug issue, 
and because he had not been convicted yet, continued to play 
all year. Has there been any effort to get the sports world to 
make a strategy of putting up with much less? It seems to me 
you can have two, three, four incidents, and you can still play 
football and other sports. And I think that is a terrible 
message to young people, that you can be a professional and 
excel, and be a drug addict.
    General McCaffrey. Well, I certainly could not agree with 
your view more strongly. The enforcement piece of it, the 
sanctions, if you have sanctions and drug testing in the hands 
of the same people who are running the league, it will not 
work. I mean, I do not know why we are surprised at that. It is 
counter-intuitive to think that somebody who benefits 
economically from the players can possibly sanction them. And 
so we are arguing very strongly, and I think with increasing 
effectiveness, you have got to have an independent drug-testing 
agency, and that we need to apply drug free workplace laws to 
professional sports. And we are making progress. In the NBA, as 
you remember, we got into the contract ``no marijuana use.''
    Surprisingly, and I almost hate to tell you this, the NFL 
is doing pretty well compared to many. They do have a decent 
code. They do test. I still think your point is a good one. 
When you have public figures who are clearly compulsively using 
drugs and not sanctioned, that is a huge problem.
    We have gotten a great feedback. We conducted a National 
Coach-a-thon last year. We have gone after kids who deal--are 
in organized sports, soccer, swimming, baseball. We have 
provided material to their coaches. We are very heavily engaged 
in professional leagues--and they are being very supportive--to 
include Major League Baseball. Major League Soccer has been 
incredibly responsive to the issue. We are now working with 
trying to affect the international olympic movement. We are at 
the point now where if you are a national competitor or an 
international competitor, it iswidely believed that you cannot 
win unless you are using performance-enhancing drugs. That is the deal.
    And I just testified at Senator McCain's committee 
yesterday, that in the space of five years we ended up with 3 
percent of the youth population using steroids. We have more 
girls than boys using steroids today. You can get on the 
Internet and order this stuff, and it comes through the mail to 
your house. We have a huge problem in the athletic setting, and 
yet, that is also a solution to us. I think we are moving in 
the right direction. We are getting tremendous help out of U.S. 
Olympic Committee, NCAA and others.
    Mr. Peterson. Do you have any printed material on the 
hazards of marijuana use that is available, readily available?
    General McCaffrey. Absolutely. And we have got it out all 
over America, particularly in the school systems. Secretary 
Dick Reilly has some good material, and Donna Shalala has also 
produced, through SAMHSA and NIDA, some more material, which we 
get out through the great civic associations. If you are in the 
YMCA youth program now, you are seeing our youth anti-drug 
media campaign in your activities, as are the Boys & Girls 
Clubs, scouting movement. We are now working with the Girl 
Scouts.
    Mr. Kolbe. Thank you very much, Mr. Peterson.
    General, I want to bring us back to the focus of this 
hearing, which is the media, the entertainment industry, the 
media campaign, the use of the match and how we define that, 
measure that, and measure its effectiveness. I have a number of 
questions here on the nuts and bolts of that.
    The law provides for the money to be either the cash or in-
kind contributions. So I take it that is the way in which this 
whole concept of the media match or the soft match and the 
content match evolved. But could you perhaps tell us just a bit 
more about how this concept evolved of using this match?
    General McCaffrey. The history of it is interesting. When 
we actually started it, we did not have the match in there. We 
knew we wanted to leverage the investment. We were very 
concerned. There were things we were worried about. We did not 
want to dry up PSAs, not only that existed through Partnership 
for Drug Free America, but also for other related issues. We 
did not want to dry up teen pregnancy, anti-AIDS ads, et 
cetera. So we got into it with working with the Ad Council and 
the American Advertising Federation, how do we make sure we 
protect public service in the media?
    But the first law did not have match in there. Zenith did 
some very creative work, got in there and said, ``Let us do 
just that. Let us negotiate some kind of a match.''
    Mr. Kolbe. Let me clarify that. Are you telling me the word 
``match'' was added into the legislation? And when was that?
    General McCaffrey. Yeah. I think the second year we got the 
match mandated by law and we----
    Mr. Kolbe. In our appropriation?
    General McCaffrey. right.
    Mr. Kolbe. Not the underlying authorization of this 
program. Okay. When match came about then, that is what you 
were thinking about, not match of time, but you were thinking 
of match through content?
    General McCaffrey. Well, I think what we were thinking 
about, we wanted to, first of all, not just think in terms of 
television, we wanted to see this as the full spectrum of 
communicating with young people, and we wanted to leverage the 
investment. And it turned out there were industry standards on 
how you do that. It turned out there was a body of knowledge 
out there already on how to do that.
    Mr. Kolbe. And I want to come to that. The idea of using 
program content match, does the idea for it initiate with your 
agency, with the program, with Ogilvy & Mather? Who initiates 
this?
    General McCaffrey. Well, of course, the concept was out 
there already.
    Mr. Kolbe. No. I mean specific. Now I am talking about a 
specific program, a specific message that is going to be there.
    General McCaffrey. Well, the process, first of all, is run 
by Ogilvy-Mather, not me. I have got a dozen lawyers and 
creative people quarterbacked by Alan Levitt, Ogilvy-Mather for 
media buying and Fleishman Hillard, when it comes to 
interactive and other areas. But Ogilvy-Mather media buying, 
that is where this is getting run. So they are looking out 18 
months. They are buying well out in front. If I remember the 
figures, we dropped sort of dollar per output function by 
almost 30 percent the second year because we were out in front 
of the marketplace. And when they go for the media buy, they 
are also negotiating the match. And part of that is, we have 
got to tell them about the match program, that you cannot just 
ring up a message and play; it has to be on one of these 10 
message themes, it has to get vetted to get credit, and here 
are the ways you can----
    Mr. Kolbe. You said 18 months in advance, but most of these 
programs are not written and filmed 18 months in advance.
    General McCaffrey. Well, TV, you are right. You have a much 
shorter time. But we are buying access time that far out.
    Mr. Kolbe. So if I understand it then, it is a joint thing 
where Ogilvy & Mather goes to the producer and says, ``This is 
what is available to you. Do you want to use this?''
    General McCaffrey. The people that are putting the material 
on the air, that is who they are buying access with. They are 
saying, ``If you have got a television station or radio 
station, if you are a firm that rents billboards, we are going 
to spend X hundred thousand dollars with you. You have got to 
develop at least 100 percent match.'' Now, where the material 
come from? It can be our nationally produced Partnership for 
Drug Free America material, or it could be 100 Black Men, YMCA, 
a corporate sponsor. And if you do other material, here is how 
you get it cleared for use through the American Advertising 
Federation locally. So it could be standing up for the Boys & 
Girls Club in Detroit, an anti-drug message, ``Get involved in 
their programs and your kids will use less drugs.'' True. So 
that message then has to get checked off as being adequate by a 
local council, American Advertising Federation.
    Mr. Kolbe. But I am talking about the messages that we saw, 
or some of the messages that we saw. Some we saw here were 
explicit kinds of ad or messages. I am talking about the 
messages that are embedded into the program itself.
    General McCaffrey. Right. So Warner Brothers or CBS or Fox 
would say--first of all, most of it is paid access. I mean, 
most of it is matching television or radio ads, 85 percent.
    Mr. Kolbe. 85 percent, I understand.
    General McCaffrey. But go to the 13 percent that is, quote, 
``soft match'', we----
    Mr. Kolbe. That is what I am really trying to focus on 
here.
    General McCaffrey. That 13 percent, there are some 50 odd 
shows. That was the creative content of the people writing and 
producing those shows.
    Now, they will get an idea. We have done seminars, part of 
this media research, so they have been educated scientifically 
about drug abuse. They will write in a content, voluntarily 
send a script in, and we will look at it for them, and say, 
``No, that is right. It is on-message. It is scientifically 
accurate.''
    Mr. Kolbe. Okay. Now, that gets to my next question, and I 
do not want to take up too much of my time here. They send the 
script in, so it is ONDCP then that says, ``This meets our 
test. It is eligible for the soft match?''
    General McCaffrey. Well, I almost hate to say ONDCP. Since 
I am accountable, I will, but basically it is a behavioral 
science expert panel. It is a NIDA-based review.
    Mr. Kolbe. It is a panel that you have that is----
    General McCaffrey. Ogilvy-Mather provide categories of what 
is acceptable, and the scripts, essentially, scripts or other 
content will be vetted, depending on where it started. If it is 
locally, it will be vetted by a local board.
    Mr. Kolbe. Okay. I am just trying to understand the 
process. Who then finally does sign off, and says, ``Yes, this 
meets the''----
    General McCaffrey. Well, if it is one of the 102 media 
markets, it is a local ad on a local radio station----
    Mr. Kolbe. No, one of these national, like ``Cosby Show'', 
when something has been vetted into the----
    General McCaffrey. Well, one of the seven major networks 
producing their own PSAs or program content, it would probably 
end up coming to us and----
    Mr. Kolbe. And you are going to say it is eligible for the 
credit?
    General McCaffrey. Based on----
    Mr. Kolbe. Your agency.
    General McCaffrey. Based on a NIDA behavioral science, 
review.
    Mr. Kolbe. Okay. So this NIDA behavioral review says, ``We 
think it is eligible.'' You have the final sign-off. Is that a 
fair----
    General McCaffrey. Paid or non-paid? Presumably at the end 
of the day, I am accountable for all of it.
    Mr. Kolbe. I understand. I am just trying to get an 
understanding of how this process works. Have there been times 
when somebody has--and I have really gone beyond my time, but I 
just want to follow this through here. Have there been times 
when a script was submitted, and you said, ``Well, it is close, 
but it is not on target, but if you make some changes here, it 
will work for the soft match?''
    General McCaffrey. Well, I think there is clearly feedback, 
but interestingly enough, the creative person, the writer-
producer who works with us, has no concept of media match. They 
do not know anything about this. They do not know about the 
accounting techniques. Their purpose is to get good quality----
    Mr. Kolbe. Entertainment.
    General McCaffrey. Entertainment----
    Mr. Kolbe. Assuming it is communicated to----
    General McCaffrey. What?
    Mr. Kolbe. Somebody has to communicate to that writer.
    General McCaffrey. Yes. And many of them will come up on 
the net and talk to us. There are web pages now they can go to, 
and they are using them. We have conducted seminars for all 
these groups, all the TV writers and producers, movie people. 
So there is an interaction back and forth. But there is 
feedback, and for example, if something was scientifically 
inaccurate, we would point that out. If humor, if being drunk 
was made to appear amusing, we might note that there was no 
consequence to drug using behavior.
    Mr. Kolbe. One last question. This whole idea you have 
described in your opening statement of counting an hour-long 
program that is entirely on-message, I think you said counts 
for three----
    General McCaffrey. Would be five.
    Mr. Kolbe. Five 30-second spots. Is this unique or is this 
done elsewhere? Is there any other----
    General McCaffrey. Well, I think there is an industry 
standard to do this kind of thing. The only thing I would 
suggest is that we are not paying anything but production costs 
for the appropriated side. We pay nothing for the matching side 
at all. So when you get credit for a ``Cosby'' ad, you may have 
gotten it at a fraction of the cost, that if I was trying to 
get Subaru Autos into that ``Cosby'' section, I might have had 
to pay a lot more to do it.
    Mr. Kolbe. Well, that was my question. Is it comparable to 
the product placement?
    General McCaffrey. It is absolutely a fraction of the cost, 
because we are not paying Actors Guild fees. I am trying to 
think. Everyone involved in this process has waived their fees, 
which is a tremendous gift to us, and that is not the case for 
other public health campaigns necessarily.
    Mr. Kolbe. Okay. Mr. Hoyer.
    Mr. Hoyer. I want to hear our next witness. So I am not 
going to ask questions, other than to observe that it would be, 
I think, very useful for our members to know and for the Nation 
to know the value of the contribution. In other words, not only 
are we investing from the public sector, but we are also not 
only getting the match, and the contribution of the services to 
which you just referred.
    Thank you.
    Thank you, Mr. Chairman.
    General McCaffrey. Mr. Hoyer, you know I am just looking at 
January 1998 and October 1999, $199 million pro-bono match. And 
that is quality access to these audiences, a huge amount of 
access.
    Mr. Hoyer. So more than a one-to-one match.
    General McCaffrey. Oh, absolutely.
    Mr. Kolbe. Mr. Peterson.
    Mr. Peterson. Yes, could you elaborate further on the 
entertainment industry and particular time slots you are 
targeting.
    General McCaffrey. Well, the last time it was explained to 
me semi-adequately, it took Shona Siefert from Ogilvy and her 
people, they came in around 4 o'clock, and they got out of 
there at close to midnight.
    Mr. Kolbe. No, that will not work. [Laughter.]
    General McCaffrey. But it is worth your staffer getting an 
hour briefing on this. It is wonderful to see how they do this. 
But on the other hand, they have got a lot ofexperience selling 
products using the media. And so we have given them requirements. I 
mean, this is not do as good as you can. You have got to communicate to 
certain age groups and their adult mentors. You have got to get to the 
ethnic minority population. You have to talk to African-American kids, 
Hispanic kids, et cetera, and their parents. So to get to those 
audiences, you have got to know where they are in the marketplace. If 
you want to talk to Native Americans on a reservation, you have to go 
to radio. You cannot go to the New York Times.
    Some of it is obvious, some of it is not. Chinese language 
radio stations in San Francisco. So when they have done that, 
and we give them sort of output function guidelines, they 
devise a strategy and come back and explain it to me. And then 
we have got to evaluate it and see is it working, are you 
getting to the market you are after. And if you get to them, 
are your ads credible or is the communication credible? Do they 
see it happen, hear it, are they influenced by it? And all of 
that, of course, is being evaluated by NIDA and Westat 
Corporation.
    Mr. Peterson. You are targeting the times when those young 
people are watching television.
    General McCaffrey. Absolutely. Or were not, or were on the 
Internet. And we have got eight Web pages now that are linked 
to 21 other Web pages. So if you come up on the Net and type in 
``drugs,'' you may end up on freevibe.com, which was done for 
free, I might add, by Disney-ABC. I think Disney has got a 
representative here, and here is color, interactive, 
scientifically accurate, exciting information about drugs. And 
by the way, while you are using freevibe.com, you may have a 
chat with Steve Young of the San Francisco 49ers, three million 
kids in an interview last week or you are talking to World Cup 
soccer champion players, the Women's World Cup or the Williams 
Sisters or Andy MacDowell or Tara Lipinski or whoever. We are 
trying to attract you in to listen to the message.
    Mr. Peterson. Thank you.
    Mr. Kolbe. General, thank you very, very much. I know there 
are still questions that we could have, but I think they will 
hopefully get resolved as we hear next from Susan David, who is 
the research coordinator at the National Institute of Drug 
Abuse. And we thank you very much, General McCaffrey, for your 
participation today. And the members here and in the audience 
this afternoon will also be hearing from the media industry 
itself.
    Thank you very much, General.
    General McCaffrey. Thank you, Mr. Chairman.
                                        Thursday, October 21, 1999.

                NATIONAL INSTITUTE OF DRUG ABUSE [NIDA]

                                WITNESS

SUSAN DAVID, RESEARCH COORDINATOR, DIVISION OF EPIDEMIOLOGY, SERVICES, 
    AND PREVENTION RESEARCH
    Mr. Kolbe. Thank you very much, Ms. David. We welcome you 
to the table here. And as I have already noted, you are the 
research coordinator in the Division of Epidemiology and 
Prevention Research at NIDA. And you have the responsibility 
for evaluating the impact of our anti-drug youth media 
campaign.
    We have a statement from you which, of course, as is 
normal, we will place the full statement in the record. If you 
would like to make some opening remarks, we will then go to 
questions afterwards.
    Welcome.
    Ms. David. Thank you.
    Mr. Kolbe. Thank you very much.
    Ms. David. I will take the opportunity to make some opening 
remarks, with your permission.
    Mr. Chairman and members of the committee, I am pleased to 
be here on behalf of the National Institute on Drug Abuse and 
Dr. Alan Leshner, of course, who is our director, who testified 
here about six months ago about the campaign. I am accompanied 
today by my deputy project officer, Mr. Arthur Hughes, who is a 
mathematical statistician and knows a lot about surveys and 
other intricacies of this project.
    Also present in the audience, I would like to introduce Dr. 
David Maklan, who is a vice president of Westat, which is our 
evaluation contractor, and Dr. Robert Hornik, who is from the 
Annenberg School for Communication at the University of 
Pennsylvania. These gentlemen are obviously heavily involved in 
helping us do this evaluation project.
    As you know, NIDA was asked by ONDCP to conduct an 
independent and scientifically based evaluation on the outcomes 
and impact of the campaign on parents and their children. 
Briefly, the evaluation includes two surveys: the National 
Survey of Parents and Youth, which will provide a national 
picture every six months, and the Community Longitudinal Survey 
of Parents and Youth, which will provide insight into the 
effects of the campaign on family and the community.
    I would like to directly address your interest about issues 
involved in evaluating the effectiveness of the use of 
television programming in the campaign. Let me first describe 
our general evaluation approach. Our science-based strategy for 
the evaluation focuses on two primary facets of the campaign: 
the paid advertising, which ensures a certain level of media 
exposure and frequency for each target audience--that was just 
discussed. Director McCaffrey just talked about that--and the 
general message content that evolved from the most effective 
prevention research.
    The evaluation design captures effects that are cumulative 
over multiple exposure to messages from manysources on 
representative samples of youth and their parents. Specifically, 
approximately 8,000 youth and parents are interviewed in each six-month 
wave from our national survey. The measures are designed to assess 
changes in knowledge, beliefs, attitudes and behaviors brought about by 
messages in the campaign ads.
    Despite the primary focus on the paid advertising portion 
of the campaign, the evaluation tries to capture, in a general 
way, whether audiences are aware of anti-drug messages in 
television programming. We have the following set of questions 
that will appear in both parent and teen questionnaires: We ask 
people, ``In recent months, how often have you noticed stories 
that dealt with drug use among young people in--'' primarily 
the concept we are looking at here is TV movies, sitcoms or 
dramas. So we ask specifically those variety of opportunities 
that we saw that Director McCaffrey showed this morning. ``What 
kinds of programs might you have seen?''
    Then we also ask about TV news or radio news, about TV talk 
shows, movies watched in movie theaters and on rental videos. 
And we ask is it not at all, one to three times a month or more 
than three times a month. So we are asking people about the 
frequency. ``Did you see these things?'' And then ``How often 
did you see them?''
    We would expect that if the campaign efforts are 
successful, they will produce a large number of placements of 
anti-drug messages in normal television programming, and many 
respondents will recall these recent exposures. As Director 
McCaffrey described this morning, the campaign has already 
succeeded in placing anti-drug messages in entertainment 
programs and expects to expand these efforts later on in the 
campaign.
    Thus, the evaluation will provide some picture of the 
extent to which audiences are aware of anti-drug messages and 
whether this level of awareness changes over time. We would 
also be able to examine the association between recall of 
exposure to such stories and relevant beliefs, attitudes and 
behaviors.
    The evaluation, however, is not designed to be able to 
measure the effect of a single episode of a television program. 
There are several reasons for this. Number one, the evaluation 
is designed to capture the cumulative and multiple exposure to 
campaign messages, as I described before.
    The second thing is it is likely that only a minority of 
the people interviewed in our survey will have actually seen 
the episode. Even in very popular programs on a particular 
night, less than 25 percent of viewers are seeing a specific 
program. So in our survey it is unlikely that enough people in 
our sample will see it.
    And third, the short-term impact of a single exposure means 
that most people are unlikely to recall the episode three to 
four weeks later after the program has aired. Consequently, we 
expect that only a small portion of our six-month sample, those 
8,000 people we are interviewing, would have viewed the 
program, remembered it and experienced the potential effects of 
that single exposure. This small portion is likely to be too 
small to produce statistically reliable outcomes. Despite the 
fact that we are unable to capture the effects of a single 
program, we expect that if the campaign succeeds at placing 
messages in many programs over time, our broad measure will 
provide some evidence that such repeated and cumulative 
exposure will contribute to the overall effects of the 
campaign.
    As to the status of the evaluation, NIDA and Westat are in 
the final preparation stages. We are conducting interviewer 
training next week and will initiate the first interviews the 
following week. Our first semi-annual report, which will serve 
as a baseline for the study, will be released in June of 2000.
    Thank you for the opportunity to testify this morning, and 
I would be happy to answer questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kolbe. I think your testimony really comes to the heart 
of what we are trying to get at here this morning, and that is 
how we measure the effectiveness of what we are doing. I have 
been harping on this all along on this media program, that it 
needs to make sure that we have a good evaluation component to 
it, and you have certainly outlined I think the elements of 
that.
    Let me ask just a few questions to clarify some of this. 
Are you aware of any other studies that have been done either 
by agencies such as yours or independently in the entertainment 
industry or the advertising industry that measures the 
effectiveness of media campaigns? And I am thinking more 
specifically of products, where it seems to me that in the end 
you have got the bottom line of how many of the products are 
bought. But I am thinking more in terms of behavioral changes. 
Are there any other peer-reviewed studies that you know of that 
deal with this?
    Ms. David. Well, to clarify, there are important studies 
that look at behavior change and have done this in 
communitywide studies that have looked at campaigns and their 
impact. But if you are saying to compare it to a PSA compared 
to television programming, that is another matter. I think one 
of the unique things that we see here is a major campaign with 
paid advertising; the idea of being able to control the 
placement of socially responsible awareness ads and be able to 
put them in the right place at the right time to reach the 
right audiences and with a very heavy focus on exposure, to 
have that and then to have a combination.
    We feel very privileged to have been able to design a 
science-based study that is based on the Commit Project, which 
is a study of smoking and heart disease and other studies. So 
that we have used a model like that, but our primary focus is 
looking at the ads themselves because the ads contain messages 
that are designed carefully and are focused for a particular 
audience, and they will be repeated. And it is that cumulation 
of that.
    Mr. Kolbe. We can go all of the way back to 1965 or 1963, 
when the first anti-smoking message was put on cigarettes, and 
so we have a long history--we can get longitudinal data--a long 
history of this in that area alone. But it is hard, is it not? 
And more recently you have had the massive advertising 
campaigns funded by the tobacco settlements that have appeared 
on television. But it is a little hard to isolate, and we have 
seen the decline in smoking through the years, at least up 
until recently, it is a little hard to isolate what is 
responsible for what in all of this, is it not?
    Ms. David. Yes, it is difficult. One of the things we have 
done in our study, Dr. Hornik, who is the realdesigner of the 
approach we have taken, is that we try to identify as many sources of 
influence as we can. So in the case of this particular question about 
television, ``Have you noticed any stories in television programming?'' 
We ask about television programs specifically, we ask about news 
accounts, we ask about the media, different media, we ask about movies. 
So we try to discern, if we can, the influences. We also ask people, 
``Have you participated in a drug education program recently either 
sponsored by schools or sponsored by your religious organization?''
    We ask about other involvements that help us discern those 
influences. But pulling them apart will be very difficult, even 
with sophisticated analytical approaches. On the other hand, 
let us face it, the most successful programs have been those 
that have been communitywide, wraparound, any message that is 
positive and consistent in producing a social message and that 
reinforces each other, that is all to the good from our point 
of view.
    Mr. Kolbe. Thank you. I am going to allow time for 
questions from our other two members that are here.
    Mr. Hoyer.
    Mr. Hoyer. Thank you.
    Ms. David, in General McCaffrey's presentation, we note 
that in 1991, apparently, for some reason, there was a spike-up 
in terms of use and perception of the harmfulness or, 
conversely, a spike-down in not harmful, a spike-up in use.
    If we knew why that has spiked up, we can deal with it and 
try to spike it down. Why did that happen in that time frame, 
do we know?
    Ms. David. Well, some of the scientists, Dr. Lloyd Johnston 
and others, have conceptualized that suddenly there was a 
tremendous absence of anti-drug messages in the media that 
occurred. And I, myself, was the Public Affairs director for 
NIDA at the time, and it was difficult to get newspapers and 
others interested in talking about marijuana and to get a 
message out there. So many of us thought that there was an 
absence of messages, and with that absence grew a, I guess, a 
strength of the opposite of an anti-drug absence message. And 
so that is what people have talked about, but to say we do not 
have definitive research that says absolutely.
    One of the keys that we have built into the evaluation is 
that we have used those basic, those same kind of measures that 
Dr. Johnston uses, but we also ask lots more questions about 
attitudes, beliefs and behaviors so we can learn more about 
what is underneath those things, and maybe we will be in a 
position to explain more the next time.
    Mr. Hoyer. Let me ask you something about tobacco. The 
chairman observed that it was down. I used the statement, and 
it was correct at some point in time, and I wonder if it is 
still correct. I have three daughters, neither their mother, 
nor their father, ever smoked, but they all three smoked at one 
time. Luckily, my oldest daughter, who now has had a child, 
quit at that time. The two younger daughters still smoke, 
notwithstanding their father's serving on the Labor and Health 
Subcommittee and bringing them home a lot of information all of 
the time. It is very disconcerting to me, and I talk to them 
about it regularly. They say it is very hard to stop.
    At some period of time, the only group in America that was 
smoking more were young women between the ages of 18 and 35. Is 
that still the case?
    Ms. David. Mr. Hoyer, I have to plead, I am not guilty on 
this, I am not an expert on it. But I will go back to the 
Institute and do that for the record.
    Mr. Hoyer. The reason I say that is my presumption was that 
the reason that was the case is because smoking was an 
indication of equality and status. ``You've come a long way, 
baby.'' A direct appeal to have women smoke. So that if they 
had a Virginia Slim in their hand, they would look really cool.
    Ms. David. Yes.
    Mr. Hoyer. It is insidious. And that is our concern with 
the public media. Twenty-six percent or twenty-two percent 
displaying normal drug use.
    Ms. David. Sure.
    Mr. Hoyer. As General McCaffrey saying, you want to 
``unnormalize'' the use of drugs.
    Ms. David. That is right. Right. Yes.
    Mr. Hoyer. It seems to me that if there is a correlation 
between that sort of incentive, it is obviously from a market 
standpoint. The other way you impact it is the way we have been 
talking about and General McCaffrey has been talking about. But 
it seems to me it is critical to have young people think it is 
not cool.
    Ms. David. That is true.
    Mr. Hoyer. And if the 1991-1992 spikeup was an absence of 
information that it is not cool, the general premise is that 
they were not getting that repeated message, therefore, it 
spiked up.
    Ms. David. Well, one of the things we are very excited 
about at NIDA is that we have just, in fact, it just got 
announced, that the NCI, the National Cancer Institute, and 
NIDA are co-funding seven new centers to look at tobacco 
issues. And one center that I am associated with is looking at 
marketing and other issues in regard to youth. And so that just 
got funded I guess two days ago it got announced. And so we are 
really hopeful that they will have some significant, that these 
are large-scale grants, they are interdisciplinary, and they 
will be looking at lots of issues and, hopefully, we will be in 
a better position to answer that more directly.
    Mr. Hoyer. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Mr. Peterson.
    Mr. Peterson. Is one of the major deterrents, fear that it 
is harmful to your health, that you are going to have some 
negative health concepts from using a drug? Is that part of the 
message that should be out there?
    Ms. David. I think it always needs to be part of the 
message. There is no question that there needs to be an 
environment in which drugs are viewed as harmful, because they 
are. But the issue has to do with recognizing the social 
environment that young people are in. And the social 
environment does not always lead to their operating on that 
kind of information.
    So what you need to look at are, in fact, as I understand 
it, the campaign and our model, our evaluation model, are 
looking at social consequences, problems. Some young people 
might think that their peers will not like them if they do not 
do drugs. I think the focus of the campaign is to change that 
norm and say it is a positive thing not to do drugs. There are 
good things to do and so on.
    So I think there always has to be a backdrop of the harmful 
effects of these drugs, and then within that, thethings that 
matter more to young people when they make decisions about drugs.
    Mr. Peterson. We have the legalization debate, we have the 
medical discussion that marijuana is a good medical--we should 
be using it medically, which really deters from it being a 
harmful product. I think marijuana is the one that has kind of 
slipped right by us. I think marijuana, and I have family 
members who got heavily into marijuana when they were young, I 
think it is going to impact them the rest of their life. I just 
do not think they are the person they would have been if they 
had not got involved in marijuana.
    I do not think that message is out there. I mean, they tell 
me it is less impacting than alcohol, you know, it is better, 
you do not have a hangover. And I want to tell you they are 
down into our middle schools starting them on marijuana, giving 
it to them first. It is pretty cheap today. And I guess I think 
the one that is the gateway to most drug use is marijuana, and 
of course alcohol is another one. But marijuana is the one that 
I think has just gotten right by us on the radar screen.
    Young people are not afraid of marijuana. They are just not 
frightened by it. They do not think there is anything harmful. 
It is less harmful than their parents taking a glass of wine. I 
mean, that is what they tell me. And they are fighting for 
legalization, and that is an ongoing discussion publicly. And 
so when you are legalizing something, you are saying it is 
okay.
    Would you like to comment on that?
    Ms. David. Well, I think that the one terrific thing about 
this campaign, which is just kicking off in its full bloom, if 
you will, is that it has a comprehensive message. Bottom line, 
looking at consequences and trying to present to young people 
consequences that matter to them in a context of other kinds of 
messages, better ways to be, things that can interfere with 
your hopes and dreams, those Williams sisters, those kind of 
neat-looking young people, very young people, who can succeed 
and be role models and say, ``Drugs do not mean anything to me. 
I do not need them.''
    So from that point of view, I think the campaign, which was 
designed with a science-based strategy, is working on the right 
messages and the appropriate things. Now, as an evaluator, I am 
not supposed to say that, of course. I am supposed to be 
totally independent. But basically our model is based on the 
same model that the campaign is trying to accomplish. It is a 
model of trying to deal with things that matter to young 
people, matter to their parents, ``How can I talk to my kids? 
What are the messages I should use?'' and putting that into a 
model. And we are evaluating it using the same model, saying, 
``Are these things changing? Will they change? What is the 
long-term impact?''
    Mr. Peterson. Thank you.
    Mr. Kolbe. Thank you. We only have five minutes left in 
this vote. And I have a whole series of other questions, but I 
do not think it would be fair to have you come back or to have 
us come back, since we have a hearing scheduled this afternoon. 
I will submit mine for the record for you. I apologize that we 
are shortening this just a little bit, but our schedule is 
determined by what happens on the floor also.
    We thank you very much for appearing with us today. Thank 
you so much.
    We will resume at 2 o'clock.
                                      Thursday, October 21, 1999.  

                     YOUTH ANTI-DRUG MEDIA CAMPAIGN

                               WITNESSES

MARCY KELLY, BOARD MEMBER, MEDIASCOPE
ROBBY LONDON, EXECUTIVE VICE PRESIDENT, DIC ENTERTAINMENT
LAWRENCE FRIED, EXECUTIVE VICE PRESIDENT, MARKETING, ABC
PATRICIA GOODRICH, DIRECTOR, CORPORATE INITIATIVE, ABC

                           Afternoon Session

    Mr. Kolbe. Good afternoon, and thank you very much. We will 
resume the subcommittee hearing. My distinguished, Mr. Hoyer, 
has another subcommittee meeting going on now, and he may or 
may not join us later, and other members may join us for this 
afternoon. But I do want to go ahead, particularly inasmuch as 
we are going to be interrupted here in about 25 or 30 minutes 
by votes here and a series of votes. Many of you have been 
around Capitol Hill enough to know that our life depends on 
these bells and things that go on here. So we will try to work 
around that, and there may be a period that you will have some 
time for conversation among yourselves, but we will get back as 
quickly as we can afterwards.
    We began this morning, for those of you that were here, by 
exploring the role that is played by the entertainment media 
and the National Youth Anti-Drug Campaign. And so this 
afternoon we want to focus on the entertainment industry 
itself, and we welcome four witnesses and experts that come 
from the entertainment industry and our media experts. And you 
are all here agreeing to lend us your expertise and experience.
    You come from both bicoastal worlds there, California and 
New York, the capitals of our entertainment world, and weare 
very appreciative for your coming and participating in this hearing.
    Our witnesses this afternoon include, and we will go in the 
order from right to left, include Marcy Kelly, who is founder 
of Mediascope and a member of its board of directors. This 
organization has a lot of experience in the area of portrayal 
of public health and social issues in the entertainment 
industry.
    We have Robby London, vice president of DIC Entertainment, 
who has an impressive portfolio of children's entertainment 
programming to his credit.
    Patricia Goodrich is director of Corporate Initiatives for 
ABC. And I hope that she will be able to give us her 
perspective as network executive on the workings of the match 
requirement, as well as the campaign's outreach initiative.
    And lastly, doing the same, is Lawrence Fried, executive 
vice president for Marketing and general sales manager for ABC.
    So we look forward very much to the testimony this 
afternoon and what we can glean from you about this media 
campaign. Let me just add, parenthetically, as my own personal 
view, this is something that I have a great personal interest 
in, and there are many in Congress that feel a kind of parental 
responsibility for this program and helping to not only get it 
off the ground, but to keep it moving forward. And so the 
purpose of our hearing today is certainly not in any way to 
find fault with the program, but rather to understand it and 
hopefully to try to make sure that, as members of Congress who 
have a responsibility for funding for this program, that we are 
making the right decisions and directing this in the right way.
    And so with that thought in mind, and if he is able to be 
here later, I certainly would call on Mr. Hoyer for his own 
statement. But let us begin with Ms. Kelly.
    Ms. Kelly.
    Ms. Kelly. Thank you.
    Mr. Kolbe. And may I add for all of you, your full 
statements can be placed in the record if you would prefer to 
summarize the statements or just discuss the comments that you 
want to make.
    Ms. Kelly.
    Ms. Kelly. Good afternoon, Chairman Kolbe, and Mr. Peterson 
and staff. My name is Marcy Kelly, and I am the founder, past 
president and current member of the board of directors of 
Mediascope, a nonprofit organization that is based in Studio 
City, California. I am very pleased to be here today to speak 
about incorporating pro-social content into entertainment media 
so that audience reach for public health information can be 
maximized.
    We are very pleased to be part of the National Youth Anti-
Drug Media Campaign, which has been designed to extend its 
audience penetration beyond the traditional methods, to 
incorporate the use of popular culture so central to the lives 
of young people. We know today that media is a primary source 
of information for most people in this country. The October 
18th edition of Newsweek lists television and movies as the 
most influential sources in the lives of 10- to 15-year-olds, 
the so-called ``tweens.'' And so it is imperative that those 
who work in entertainment media have access to the most up-to-
date information about high-risk health issues so that 
responsible and accurate portrayals can be incorporated into 
programming. Some of the topics that we have addressed to date 
include violence, AIDS, teen pregnancy prevention, media 
ratings and substance abuse.
    Our work is focused primarily on promoting constructive 
depictions of social and health issues in film, television and 
music. We accomplish this by bringing public policy issues to 
the attention of professionals working in the entertainment 
industry, and this is often accomplished by brokering 
information before the public health and academic communities 
and the creative communities.
    Typically, we will bring one or more leading experts in a 
particular field together with interested entertainment 
professionals. The resulting dialogue often provokes interest 
that may eventually be integrated into a line of dialogue or 
accurate character development, a background visual, such as an 
anti-drug poster or a full story line. Mediascope provides, 
when asked, access to whatever expertise may be requested, 
including consultation with the creative team.
    Examples of our collaborative efforts with the creative 
community can be found in recent projects relating to children 
and teens. Building Blocks, a guide for creating children's 
educational television was the culmination of a year-long 
series of meetings with development executives, writers, 
producers and network representatives to create a resource for 
those seeking to fulfill Federal Communication Commission 
requirements on program content.
    Through the Eyes of Children was a full-day conference last 
March at the Academy of Television, Arts and Sciences, which 
dealt with such issues as on-screen diversity and quality 
programming. And last month, with DIC Entertainment, a leader 
in children's production, Mediascope co-sponsored the 
Children's Media Summit, which focused on developing voluntary 
guidelines for creative professionals in the field and details 
of all of these projects have been provided to the 
subcommittee.
    In addition to these kinds of activities, we also strive, 
through research and publications, to objectively report on 
media content. This allows us to study how topics are depicted, 
to identify the kinds of portrayals that may be misleading or 
have the potential to cause harm and to use that information to 
help educate the creative community. The National Television 
Violence Study in 1996 revealed that most programs and feature 
films aired on television contain violence and that 
consequences to violent behavior are too rarely shown. While 
recognizing the importance of conflict and story telling, this 
information has enabled us to focus our educational efforts on 
the media risk factors that may lead to the learning of 
aggressive attitudes and behaviors, the desensitization to 
real-world violence or fear of victimization. And by media 
factors here, I am referring to things such as who commits the 
act of violence, whether it is trivialized by humor or whether 
an act is rewarded or punished.
    Earlier this year we released another study, Substance Use 
in Popular Movies and Music. You have a copy of it. It was 
sponsored by the Office of National Drug Control Policy and 
Substance Abuse and Mental Health Services Administration. It 
was authored by leading researchers at Stanford University and 
Lewis and Clark College. It is a content analysis of two years 
of the 1,200 most popular film and recording titles. This study 
revealed, as you learned this morning, that 98 percent of 
movies and 27 percent of music recordings included depictions 
of alcohol, tobacco or illicit drugs.
    One of the major concerns raised, aside from the sheer 
amount of substance use found, was the fact that consequences 
to use are rarely depicted. Research shows that if negative 
consequences are not shown, young people will interpret and 
internalize the behavior as positive. Clear negative 
consequences are essential.
    The results of this study provide an opportunity to educate 
the creative community about ways to portray drug use that is 
consistent with the messages of the campaign. We expect to 
release in January 2000 a similar study supported by ONDCP that 
will report on about 170 episodes of the most popular prime 
time shows among African-American, white and Hispanic teens. An 
additional important benefit of these studies is that they 
provide a benchmark for potential evaluation in the future.
    As leaders here in Congress and in Hollywood agree, popular 
entertainment is significant to the lives of America's young 
people. The campaign's congressional mandate requires that its 
anti-drug messages be delivered through a full range of media. 
Our goal then is to utilize the visibility and credibility of 
popular media with young audiences to convey accurate 
information that you will reinforce the messages they are 
receiving from campaign ads that drug use is not the norm, it 
is unglamorous and socially unacceptable.
    We have provided you with a detailed summary about the 
entertainment program of the campaign, but I'd like to take a 
moment to just identify a couple of areas of effort. One is 
that we have been, and will continue to host forums and 
dialogues for members of the entertainment industry. 
Information about drug prevention messages has now been 
presented to all of the television networks, members of the 
industry professional guilds, the Writers' Guild, Producers' 
Guild, Screen Actors' Guild, et cetera, trade publications, as 
well as writers, producers, directors that may be involved with 
specific shows or films, as well as development executives.
    Providing resources and information on substance abuse to 
the creative community is also an ongoing activity. This is 
accomplished by offering access to experts in drug abuse and 
related fields, such as child psychology, providing support for 
the development of stories or characters, script reviews, 
creation of specialized materials, mailings, handouts and a 
website designed specifically for the creative community.
    We are also engaging celebrities, such as Lauryn Hill, the 
Los Angeles Lakers, Venus and Serena Williams, the Dixie 
Chicks, as well as cast members from top shows like 
``Felicity,'' ``Jessie'' and ``Cosby,'' who are willing to 
volunteer their time to promote campaign messages. They do this 
in a variety of ways, including Public Service Announcements, 
on-line chats and participation in special community events.
    To help guide program strategy and execution, Mediascope 
staff members frequently rely on members of its National 
Advisory Committee, which is comprised of leaders in 
entertainment. That includes film, television, and music, 
prevention, public policy, health and academia. This committee 
provides a valuable sounding board, which reinforces our 
direction and the potential effectiveness of our approach to 
this special audience. And I should add that this committee is 
also serving as an advisor to the campaign.
    We are pleased to report that thus far the entertainment 
industry has been receptive and responsive to our outreach 
efforts. It is a unique culture integrating both business and 
art and fiercely protective of its creative freedom. We 
recognize that our role is to bring the campaign and its 
purpose to their attention to serve as a conduit for 
information, facilitate discussion and encourage them to use 
the information as they wish in the context of their particular 
situation.
    We are pleased to note that accurate and responsible 
depictions of drug abuse, addressing myths, misconceptions and 
the consequences of use have now been included in a number of 
high-rated broadcast television shows, including ``ER,'' 
``Chicago Hope,'' ``Sports Night,'' ``NYPD Blue,'' and ``The 
Practice.''
    As you know, the campaign's entertainment outreach 
activities are still in their first year, and we have many 
challenges ahead. The reception we have had thus far, however, 
makes us confident that we can fulfill your mandate to 
incorporate a full-scale media outreach in order to maximize 
the campaign's effectiveness. We feel privileged to be part of 
one of the most important public health campaigns in the 
Nation's history.
    Thank you for this opportunity, and I am happy to answer 
any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kolbe. Thank you very much. Thank you very much, Ms. 
Kelly, and we will go through all of the statements before we 
take questions.
    Mr. London.
    Mr. London. Good afternoon, Mr. Chairman, Mr. Peterson, 
assorted staff.
    I am Robby London. I am executive vice president, Creative 
Affairs, for DIC Entertainment. I have been a writer and 
producer of children's television for over 20 years. And for 
the last 14 years, I have been in charge of Creative Affairs 
for DIC, which has produced over 3,000 episodes of children's 
programs, which have been shown in virtually every outlet in 
the U.S. and around the world. Our shows include such things as 
``Inspector Gadget,'' ``Captain Planet and the Planetiers,'' 
``Where on Earth is Carmen San Diego?'' and ``Madeleine.'' Our 
programs have won Emmy, Cable Ace, Humonotous, and 
environmental media awards, and we have been recognized by the 
National Education Association.
    I can add sort of a perspective from a writer-creator 
specifically of programs targeted to 2- to 11-year-olds, which 
have kind of a very unique challenge in terms of the audience 
we are trying to reach. Because children are so impressionable, 
special skill and sensitivity are required when media broaches 
subjects such as substance abuse. One must walk a very fine 
line between presenting children information that will be 
beneficial to them and frightening him or her in an unhealthy 
or inappropriate manner.
    There is a desire to be age appropriate in our messages, 
and yet our audience is comprised of such a wide range of ages 
and associated developmental capacities that it is all but 
impossible for us to service one age without doing a disservice 
to the others. Furthermore, in trying to portray the drawbacks 
of certain behaviors, we risk actually introducing a young 
person to a behavior to which they might not otherwise have 
been exposed. And lastly, we prefer neither to offend nor 
certainly to supplant parents who have their own ideas about 
what their children should or should not be told.
    These are just but some of the challenges faced on a daily 
basis by creators of children's programs. And make no mistake, 
producers, creators, and broadcasters acknowledge the power we 
yield, and we take our responsibilities very, very seriously.
    But there is another fine line that we have to walk, and 
that is of being story tellers versus being instruments of 
propaganda. We welcome accurate information, and yet we share a 
deep concern about our freedom of creative expression. We 
insist on free speech, and we can be highly sensitive to being 
co-opted or made pawns of political or social agendas with 
which we may or may not agree.
    We see ourselves largely, first and foremost, as story 
tellers, which is not to say that we object to being conveyors 
of accurate, objective information when it is appropriate to 
our stories. We welcome the advice of experts. We welcome 
practical, accurate information on children's behavior and the 
problems and dangers they face.
    That is where the entertainment outreach component of the 
campaign comes in. It is an extremely cost-effective way to 
reach the audience at large simply by passing the information 
along to the creators and gatekeepers of that program to that 
audience. And if such information does wind up in an episode, 
you have reached millions of people, and you have reached them 
in a way that is more likely to have impact because it is part 
of the stories and characters they love to watch. And I think 
there is a real danger in trying to quantify simply these 
exposures because I think it is the nature of the impact that 
is equally important as the amount of them.
    It is also far less likely than Public Service 
Announcements or commercials to elicit a sort of backlash 
response. Kids from about 9 on, in my experience, are very, 
very sensitive to overt efforts to manipulate them or preach to 
them. And I think doing it within the shows stands a far better 
chance of getting that reaction than does a commercial.
    So how does one go about providing accurate information to 
the creative community in a manner that is most likely to 
produce results and end up in the programs? I feel the most 
effective way has been the meetings or roundtables in which 
experts come to the media and present research findings and are 
available to discuss and answer questions. Invariably, this 
type of an event, to me, makes a stronger and more lasting 
impression in the creators and will be more likely to have an 
impact on the programs. These workshops or meetings can be 
supplemented with written materials and funded consulting 
services which are cost-free to the users and websites, et 
cetera.
    But the reality is that most of us are too rushed and 
pressured to research these things proactively. Most writers 
work on a freelance basis, paid per script, they are not given 
research funds, they work under intense deadlines. Producers 
and executives face similarly daunting pressures. That is why I 
find these meetings, and lunch and roundtables to be the most 
effective tool.
    I would be remiss if I did not acknowledge the role of 
organizations such as Mediascope in getting the message out to 
creative professionals. Mediascope is an organization I am 
personally familiar with, and their philosophy of sort of 
presenting information in a nonpejorative manner and not really 
being an advocacy group, not really being an arm of the 
Government, but really just trying to encourage straightforward 
dialogue and information I think is very valuable. I think the 
source of this information, in terms of speaking from the 
creative community, it is really the source of the information 
that is equally important as the information because it has to 
be a credible source.
    It is for that reason that DIC recently sought out 
Mediascope to co-sponsor a summit that we held, which Marcy 
just mentioned, in which we gathered together members of the 
creative community, the National Education Association, the 
National PTA, professors from Stanford and UCLA, and all seven 
of the broadcast networks were represented, the Writers' Guild 
of America and representatives of some of the new largest new 
media outlets.
    Their purpose was to draft some guidelines, and I want to 
emphasize they were voluntary guidelines, and they will always 
be voluntary guidelines to help creators of children's media. 
And the guidelines fall into three broad categories: character 
and values, conflict and violence, and diversity and 
stereotypes. We hope these guidelines will be widely 
distributed to creators and gatekeepers of children's media and 
ultimately impact that which children see.
    As an example of the power of the informational roundtables 
I referenced earlier, there were special guidelines that we 
came up with regarding bullying. And this came directly out of 
a presentation under the auspices of Mediascope by Dr. Tony 
Bigeland, who was mentioned earlier this morning, on the role 
that bullying has played in therecent incidents of school 
violence. And upon having been exposed to this information in this 
research, we made a point to create special guidelines about bullying. 
And so that came specifically out of a Mediascope roundtable.
    DIC's and Mediascope's summit, and I think the guidelines 
that will come out of it, represent a perfect example of how 
representatives of the various disciplines which care about our 
children can work collectively on our children's behalf.
    So quickly to summarize the points. Content creators have 
the potential to reach millions of kids in a very influential 
way, programming for kids constitutes a unique challenge, most 
creators are willing, if not eager, to receive accurate 
information concerning issues of relevance to kids. To be 
effective, the source of that information, however, must be 
credible and nonpolitical. Outreach roundtables provided by 
credible, nonthreatening sources, such as Mediascope, are an 
excellent and effective means to communicate such information 
to media professionals.
    I would be happy to answer questions after the others have 
made their statements. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kolbe. Thank you. A most interesting statement. I have 
got lots of thoughts for questions here, too.
    Ms. Goodrich.
    Ms. Goodrich. Mr. Chairman, thank you for inviting me here 
today. I am going to give you a brief overview of ABC's public 
service efforts, specifically our involvement in the war 
against drugs, and I want to tell you why we think this program 
is so vitally important. Then my colleague, Larry Fried, will 
give you further detail and discuss the results we have 
achieved together. At the end, we would be happy to try to 
answer any questions you may have.
    First, the Office of National Drug Control Policy--
    Mr. Kolbe. You do not have to stop quite in mid-sentence. 
We have 15 minutes to get over there for the vote. That should 
give you plenty of time to finish your statement, and then we 
will pause and go to the votes and return.
    Please go ahead.
    Ms. Goodrich. Thank you.
    The Office of National Drug Control Policy's media campaign 
is by no means ABC's first foray into the war against drugs. It 
is, however, our most powerful. In fact, the project we are 
here to discuss today is what we believe to be the farthest 
reaching public service campaign in television history. I would 
like to start with some background on ABC's involvement in 
public service.
    The focal point for campaigns has been the use of our 
airwaves to educate and inform viewers about specific issues. 
While we do not make a point of publicizing it, ABC has 
traditionally broadcast far more PSAs than anyone else. Why 
have we made it such a priority? Because we are a family-
oriented company serving audiences comprised of all age groups, 
kids, teens and adults and because we understand how 
influential television is in this country, and we appreciate 
that with that influence comes responsibility. The fact that my 
job, head of public service, and my department exists is a 
measure of how important the company thinks it is to fulfill 
our obligation on the national level. It is a responsibility we 
try to fulfill locally as well with the ABC-owned radio and 
television stations having a long history of service to their 
individual communities. Our other principal national commitment 
has been Our Children First public service campaign, which 
focuses on mentoring as a way to, among other things, keep kids 
off drugs.
    ABC's public service commitment to the anti-drug effort 
preceded the ONDCP campaign by about ten years. Our management 
first became aware of disturbing statistics showing an increase 
in drug use among America's youth in the 1980s. In April of 
1987, we entered into an alliance with the Partnership for Drug 
Free America. We committed to devote fully one-third of our on-
air public service time, transferring long-term into hundreds 
of millions of dollars of ad time to the Partnerships' anti-
drug message. That relationship, which continues today, created 
a new model for cooperation between a media company and a 
public service organization.
    We built on our alliance with the Partnership by launching 
our own initiative in the war against drugs. In March of 1997, 
we devoted a month of programming to the ABC march against 
drugs. During that time, the ABC television network ran drug-
related PSAs hourly and integrated drug-related themes into our 
programming. Research shows that the campaign was successful in 
achieving our goal to encourage parents and their children to 
talk about drugs. We were pleased by the supportive phone calls 
and letters we got from teachers and parents thanking us for 
our commitment to fight drug use. But we wanted to do more, 
which is why, when we heard about the ONDCP's anti-drug media 
project, we jumped at the chance to be its partner.
    Why is the ONDCP effort so important? Because it has 
changed for the better the way TV is able to spread the word 
about important issues. The ONDCP project provides a much 
increased and sustained level of exposure for anti-drug 
messages. Simply put, the financial resources committed have 
allowed us to significantly increase the amount of time we are 
able to devote to warning our viewers against drugs, and that 
repetition and increased level of exposure have allowed us to 
successfully hammer home our anti-drug message.
    Thank you, and I would now turn to my colleague, Larry 
Fried, to provide further detail or after the pause.
    Mr. Kolbe. I am looking here to see Mr. Fried's statement 
here. We have 11 minutes. Do you want to give it all here or do 
you want us to hold off here?
    Mr. Fried. Do you want a couple minutes of it?
    Mr. Kolbe. Certainly.
    Mr. Fried. There is a film that will take a few minutes, 
but I can go through the statement quickly.
    Mr. Kolbe. Go through the statement, and then we will have 
show and tell when we come back.
    Mr. Fried. Okay.
    Mr. Kolbe. That will be an incentive for members who like 
to see visual things here when we come back.
    Mr. Fried. Thank you, Mr. Chairman, for giving me this 
opportunity to speak to you about ABC's relationship and 
interaction with the ONDCP.
    In 1997, when we first learned of the ONDCP's initiative, 
we felt right from the start that ABC was a perfect fit. We 
were already involved in an anti-drug campaign as an effort, as 
Patricia just mentioned. We are a family-based company, family 
oriented in programming, and we have a multi-faceted platform 
from which to really launch a terrific effort in reaching 
people with our platforms of television network, radio 
networks, ESPN, cable properties and our Internet activities. 
We really did have a perfect platform for the ONDCP.
    So we formulated a plan that we felt met the ONDCP's 
objective of getting out the anti-drug message and getting 
substantial reach and frequency against the key demographics of 
kids, teens and parents. And we won a contract from the ONDCP 
across our platforms of $61 million, with the idea that we 
would give back at least a one-for-one match in public service 
commitment above and beyond what we have done before. And I am 
pleased to report that during that contract period, we returned 
$167 million worth of match for that $61 million-dollar 
expenditure. That is nearly three times more or 173 percent 
more than just a one-for-one match would have been.
    We matched with a number of different program elements. One 
was public service ads, two was creative and three were 
outreach kinds of programs. But basically speaking, when it 
came to PSAs, we were running the public service ads in our 
top-rated programs, prime time shows, sports programs, and we 
took extreme care with our standards and practices to match up 
the PSAs that were part of the qualifying match pool to the 
appropriate programming that they were airing in. So if we were 
running a kids' program, we put a kids'-oriented PSA, and an 
adult program, an adult-oriented PSA. We even went so far as to 
create some PSAs where we used all of our own resources and our 
chairman, Michael Eisner, was also an important contributor to 
making a PSA for the ONDCP and the anti-drug effort.
    We also worked very hard with the ONDCP and the creative 
community. We had a meeting in March with a lot of our 
executives, a tremendous number of creative talent in our 
industry, and we stressed three things there. One, that the 
issues of the ONDCP were important issues to our company; two, 
that we would be open to story lines along the lines that the 
ONDCP was looking for that stressed anti-drug, anti-addiction 
kinds of story lines that we would be receptive to putting 
those on the air; and, three, that the ONDCP should be thought 
of as a resource for our creative community in the presentation 
of materials about addiction.
    Now, ABC has always had strong anti-drug themed programming 
on the air. We have always had a certain quantity of it. But we 
believe that the encouragement that we gave our creatives right 
from the very beginning, from all of our creative executives, 
helped to really ramp up this effort in this 1998-1999 season.
    And what I would do is, at this point, is tell you that I 
would show you the tape and then have about one paragraph's 
worth of closing remarks after the tape. But I leave that to 
you, Mr. Chairman.
    Mr. Kolbe. In the interest of time, we will watch the tape 
when we come back, and then you can close your remarks, and 
then we will go to questions. We have, unfortunately, a total 
of four votes here, plus final passage. When the fifth vote 
starts, we can leave and come back, even though they will be, 
after the first one, five-minute votes, it will take us a 
little time to get through these votes. So we ask you to 
indulge us here while we go do what the voters elected us to do 
here.
    The committee will stand in recess temporarily.
    [Recess.]
    Mr. Kolbe. The subcommittee will resume its hearing, and my 
apologies to the witnesses for the long delay here with the 
number of votes that we had. But I think that should take us 
through the rest of this hearing.
    I think we were about to begin showing some clips; is that 
right, Mr. Fried?
    Mr. Fried. That is correct, Mr. Chairman.
    If I could just say one thing. The clips you are about to 
see are just some of the episodes that ABC produced that we 
felt really fit into the mode on the matching opportunity that 
we had with the ONDCP. We also did a lot of other kinds of 
matches for the ONDCP that involved creativity, one of which we 
were especially proud was our freevibe site that we created for 
the ONDCP on the Internet, which has had over 6 million page 
views with an average visit of about nineminutes, and we have 
children and teens going to that ONDCP freevibe site.
    So I think we can now go to the videotape and take a look 
at creativity of ABC.
    [Video played.]
    Mr. Fried. Mr. Chairman.
    Mr. Kolbe. Mr. Fried.
    Mr. Fried. Our partnership with the ONDCP, we are very 
proud of it. We have reached millions of viewers, millions of 
listeners, millions of Web surfers. We have incented our 
executives and our creative community to the cause of the anti-
drug and anti-addiction effort, and we look forward to working 
with the ONDCP in the future.
    Thank you very much for this opportunity.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kolbe. Thank you very much, and thank all of you very 
much again for being here and for your patience this afternoon. 
I will ask a few questions, see if Mr. Peterson has some, and 
then we will see if we have any final questions before we let 
you go.
    This has been very interesting, and the information that 
has been presented has been very helpful. Let me just, before I 
get into the line of questioning that I wanted to follow here, 
let me just ask a couple about what we saw there.
    I was interested in the couple of programs that were 
targeted to young people that do not specify drugs, using 
instead pancakes and snacks. What is the age group of the 
audience that we are targeting there? Is it high school, middle 
school, high school? What is the age group?
    Mr. Fried. Well, I think if you are talking about Doug, the 
episode with Nick Nax----
    Mr. Kolbe. Nick Nax, the cartoon, yes, and the pancake one.
    Mr. Fried. The cartoon is a Saturday morning program, and 
that would be aimed at children.
    Mr. Kolbe. And the other one?
    Mr. Fried. The ``Sabrina'' is our TGIF line-up. It has the 
highest reach of teens. It also has the highest reach of kids 
of any network programming. It is also very strong on women 18 
to 49, men 18 to 49, but it is also the most popular show for 
teen and young adults, and young children----
    Mr. Kolbe. Let me ask any of you, but perhaps Ms. Kelly 
might be the one to answer this, do we have any research data 
which shows the effectiveness of a message that uses a 
surrogate thing for the message; a surrogate product, a 
surrogate, in this case, pancakes or snacks? Do we know that it 
works as transference to giving kids any message about the 
behavior they should have? Are you following? Do you understand 
my question, what I am trying to get?
    Ms. Kelly. I think I do. Offhand, I cannot specify 
particular research. However, I am happy to go back and see if 
I can identify some. As Mr. London mentioned in his testimony, 
reaching young children with this issue is very problematic 
because you do not want to introduce something to them that 
they are not ready for.
    Mr. Kolbe. They are not ready for.
    Ms. Kelly. Or their parents may not appreciate them being 
introduced to. So it is a very sensitive issue. So I think what 
the entertainment industry tries to do sometimes is to----
    Mr. Kolbe. It is building values.
    Ms. Kelly. Yes. And to lay the groundwork----
    Mr. Kolbe. Being able to say no, et cetera.
    Ms. Kelly. Exactly--for problems that will arise later.
    Mr. Kolbe. Now, that would not be true, though, of 
``Sabrina,'' which is teenagers. And certainly they are old 
enough to have the drug issue addressed to them. So I am trying 
to understand why we think that using a surrogate message, a 
surrogate evil, works here when it comes to drugs or alcohol or 
whatever.
    Mr. London. Could I respond, Mr. Chairman?
    Mr. Kolbe. Sure. Yes, absolutely, Mr. London.
    Mr. London. Two responses. One is I am not aware of any 
research, but over the years I have been advised by many 
experts, credentialed experts in children's programs that this 
was an appropriate and certainly potentially effective way to 
get at some of these issues without introducing children to a 
behavior which was either too frightening to them, which they 
could not understand, or which might serve as an example or 
educate them about a behavior that they did not already know 
about. So that is one answer to your question.
    In terms of ``Sabrina,'' the prime time series, as Larry 
mentioned, the highest rating of kids 2 to 11 watching prime 
time shows watch ``Sabrina.'' So even though that may not----
    Mr. Kolbe. I am sorry. Two to eleven?
    Mr. London. Uh-huh. I believe that is correct, is it not?
    Mr. Fried. Yes. It is aimed at basically a very young 
target audience. It is also 18 to 49, but, also, our TGIF line-
up early on Friday is basically kids and teens.
    Mr. London. And more to the point as to whether it is aimed 
there, the point is kids are watching it. And so, speaking 
personally, that seems to be a very appropriate way to try to 
communicate that message to an audience that is comprised of 
such a large amount of 2- to 11-year-olds.
    Mr. Kolbe. About addictive behavior.
    Mr. London. Correct.
    Mr. Kolbe. Clearly, the message there is about addictive 
behavior.
    Mr. London. Correct.
    Mr. Kolbe. But you do not, and I am not challenging whether 
it is a good idea to do it, but you do not know of any 
empirical evidence that says that kind of message on addictive 
behavior that has nothing to do with the addiction we are 
talking about works.
    Mr. London. I do not.
    Mr. Kolbe. For our two ABC people, I was interested in the 
one on the sports one, the Preakness. Can you just tell me 
whether that, I mean, that is clearly just not an entertainment 
program. That is, well, I guess the Preaknessmight be 
entertainment, but it is sports. It comes under sports news coverage. 
Did that qualify for, that particular little story on Chris Antley 
qualify for a match?
    Mr. Fried. Yes, it did. We count it as qualifying for the 
match, that is correct. And I believe the ONDCP counted it also 
as qualifying for the match.
    Mr. Kolbe. That raises a question. The match is not 
program-by-program; is that right? Or did you have some----
    Mr. Fried. Let me explain. We had an obligation, the way we 
broke down the obligation is the obligation was twofold; one 
was to deliver Public Service Ads and, in fact, ABC virtually 
matched its dollar-for-dollar value in Public Service 
Announcements. Anything above and beyond the Public Service 
Announcements was extra. So if we had just done Public Service 
Announcements and done no more, we would have virtually been at 
our match level on a one-for-one basis, which is what we were 
trying to achieve. We added all of these theme programs to what 
we considered the value that we returned, to give an example of 
how the company participated in this effort. But on a one-for-
one basis, we would have virtually qualified on the basis of 
PSA match alone.
    Mr. Kolbe. Let me just ask you, if there was not any match 
program, would that be a story you would run?
    Mr. Fried. Actually, the answer is yes because our ground 
rules were that these would be above and beyond, for the most 
part, what we had done the previous year. ABC is, I do not want 
to misquote these figures, Mr. Chairman, but in the year prior 
to our relationship with the ONDCP we ran about 55 percent of 
all of the PSAs on the broadcast networks----
    Mr. Kolbe. On your own network.
    Mr. Fried. On ABC. And in the year that we had the 
partnership, we ran 60 percent. And the incremental was even 
more than the amount that we just ran as match for PSAs for the 
ONDCP. So we actually ramped up our entire PSAs, in addition to 
the amount that we did for the ONDCP.
    Mr. Kolbe. I salute you for that. That is obviously very, 
very commendable. But it seems to me that story is a news story 
that has merit in and of itself, regardless of the message that 
we are trying to convey. It, at the same time, does convey a 
message without question. But that is a real news story, is it 
not, about a very successful jockey who has successfully beaten 
back addiction?
    Mr. Fried. You said that is a news story?
    Mr. Kolbe. A news/human interest.
    Mr. Fried. We actually never count any news program. Well, 
that is a news story, but it told a story about a person who 
had a problem with addiction.
    Mr. Kolbe. Right.
    Mr. Fried. There was a lesson to be learned from it. And I 
think----
    Mr. Kolbe. You just started to say ``we never count.''
    Mr. Fried. We do not count news programming in our 
qualifying at all. So if we did any stories, that would not be 
news, that would be sports.
    Mr. Kolbe. Oh, okay. Okay. Sports is in the entertainment 
category.
    Mr. Fried. Sports is more in the entertainment property. A 
news program, if it had a story line about drugs or addiction, 
we would be----
    Mr. Kolbe. If that had been on the evening news, when it 
came to the sports part of it, that would not have been part of 
the qualifying match.
    Mr. Fried. That is correct.
    Mr. Kolbe. Do you have some more questions, Mr. Peterson?
    Mr. Peterson. First, I would like to commend you on the 
efforts you are making and how you are participating. But as I 
was listening to those, if we are going to effectively deal 
with this issue, I think parents today--now, I am speaking 
again from rural. I come from rural, and rural is different 
than suburban, urban. Rural parents do not know how available 
drugs are, and they would be shocked if they knew that probably 
within a block of their house their kids could buy drugs from 
seventh grade on, maybe even younger.
    And I guess that is a message. Helping educate parents, are 
there any efforts to educate parents on what to look for? What 
happens when your children start using? Educating them on being 
aware that there is a pretty good likelihood that if their kids 
just get with the wrong friend, they are going to have drugs 
given to them. Is that a part of the programming, to educate 
parents?
    Ms. Kelly. Well, I think that even in the examples of the 
clips that we have seen today, we have seen some very important 
role modeling of parents, of communicating with their children 
and responding to exactly what to do if you discover that your 
child is using. Also, I would like to mention that with ONDCP--
I think you have this--this is a guide that we have put out for 
parents, and it deals with, for parents, how to use the media 
as a tool, how to use it, when you see something on television 
or the Internet or in a film that you may have some concerns 
about, how to communicate with your children, what to look for, 
and what at different ages they understand and what they are 
comprehending.
    Ms. Goodrich. And, also, ABC has put together guides that 
we have sent out to our stations to distribute in their 
communities in whatever form they thought most appropriate. We 
have also done guides that have gone into the schools so that 
teachers could watch these programs with their students and 
then perhaps better talk with them about what the repercussions 
were and try to give them direction on how we felt it was best 
to approach that.
    Mr. Peterson. But, see, I guess the fear I have is that 
parents are not as suspecting as they need to be. They are just 
not as aware of the drug culture as they should be. They just 
do not think it is in their town yet. They think that little, 
small town, it is down the road, it is at the bigger city, but 
it is everywhere. In fact, I think it has been growing. It is 
my opinion it has been growing faster in rural America than it 
is in urban America. It is easier there. I think the drug 
culture has found out that is a ready market. There is not as 
much enforcement.
    I have talked with lots of parents, and they would then go 
and corner their youngsters, and over a period of time come 
back to me and say, ``You know, my son told me he can, but he 
never told me that, he could buy it anywhere. He can buy 
anything he wants.''
    Of course, then we have the large number of children that 
are being raised by sort of a family. I mean, not a real 
family, and maybe somebody cares whether they do drugs, maybe 
somebody does not. And then we have that whole audience to work 
with that I guess I worry a lot about, too, because I have a 
granddaughter who tells me an awful lot ofher girlfriends are 
raising themselves. They do not have any guidelines, they are allowed 
to go and do what they want at 14/15. They just do not have any parent 
supervision. They have a mother, and maybe she works a lot or a couple 
of jobs, but there is not really a family, and they do not really live 
under many rules. And I guess that is a whole new phenomenon we have, 
that we try to think about the traditional family. Well, the 
traditional family is not raising over half of our kids, in my view.
    Ms. Goodrich. Agreed.
    Mr. Peterson. That is an audience, too. How do we get 
parents aware of what their kids are exposed to out there?
    Ms. Goodrich. One of the things that ABC has done in the 
past is, when we did the March Against Drugs, for instance, the 
big message was talk to your kids about drugs. Because we 
recognize that in the suburbs, for instance, a lot of the 
parents do not think that it can happen to them. And so we were 
advocating strongly talk to them, at least open the discussion, 
and it will be, as you found out, there will be all kinds of 
things that come out of that. But you can advocate that as 
strongly as possible, and that is what we have tried to do.
    I do not know if you all are familiar with it, but there is 
a Partnership for a Drug Free America spot where there is a kid 
on a skateboard on a big, wide beautiful street, and he is 
skating around, and they give out some really startling 
statistics about the fact that the drug culture is growing much 
more rapidly right now outside of the urban areas than it is 
within them.
    Mr. Peterson. I have not seen that.
    Ms. Goodrich. So the information is out there, and we just 
try to disseminate it as often and as regularly as possible.
    Mr. Peterson. Thank you.
    Mr. Kolbe. Ms. Kelly, this morning General McCaffrey spoke 
about the process that is used to decide about the match and 
how it qualifies. Is that the way you understand that it works? 
I guess what I am trying to understand is who makes the 
decision as to whether or not a particular editorial--we are 
talking now about the soft content, well, and also about the 
messages that might be put on, the direct messages--who gives 
the final approval on that and decides they qualify for the 
match?
    Ms. Kelly. As I think you know, there are two major 
contracts that are part of this campaign. And one is what we 
call the advertising portion of it, which is led by Ogilvy & 
Mather, and they deal with that aspect. My contract is through 
the nonadvertising side, and we do not directly deal with the 
match at all.
    Mr. Kolbe. Explain to me a little bit more about your 
contract, if it is on the nonadvertising side, does it have to 
do with the soft match?
    Ms. Kelly. Yes, it would have to do with----
    Mr. Kolbe. So it does have to do with the soft match.
    Ms. Kelly. Yes, except that the way we approach is not--in 
other words, the contract I have is through Fleishman Hillard, 
and the work that we are doing is targeted toward trying to 
educate and inform people who work in the entertainment 
industry about the issues and to encourage them to incorporate 
those into their story lines. But we do not actually purchase 
any of the time or have that connection. Most of the people we 
work with on the creative side are not even particularly aware 
of the match. They take on the issue because they think it is 
important and because it can be incorporated into their shows. 
They have characters that are the right ages and so forth.
    Mr. Kolbe. Well, that leads me into the next area that I 
wanted to talk about, and that is I think it--maybe it was you, 
Mr. London, I forget which one of you said you thought the 
outreach program, the forums and seminars that you were doing 
with the creative people, was the most effective way.
    Mr. London. Yes. That was me.
    Mr. Kolbe. More effective than my simply giving them a 
piece of paper saying, ``You put this kind of message in, you 
are going to get this many dollars credit for it here?''
    Mr. London. Just speaking solely from the creative 
community, which is not necessarily to speak from the business 
side, but there is a sort of strong demarcation in the 
entertainment industry between the creative side and the 
business side.
    Mr. Kolbe. I am sure there must be.
    Mr. London. But speaking from the creative side of that 
desk, we get deluged with paper, brochures, reports, we get a 
lot of information sent to us, and we just do not have time to 
look at it. And the reason I support the roundtables and the 
meetings is because I feel, as a general statement of 
principle, person-to-person contact and dialogue is always a 
more impactful and more important----
    Mr. Kolbe. I can believe what you just said. Because as one 
who gets deluged with reports, and studies, and so forth and 
pieces of paper that never see the light of day or that I do 
not, at least, get to read a lot of it, but then I also face 
the same thing of an overwhelming number of meetings that I 
have to sit down and attend, go to. Why would, if you are a 
creative person, you would be any more interested in sitting 
down in a roundtable just to discuss this than looking at some 
report about it?
    Mr. London. Let me give you two answers. The first answer 
is many of these meetings are held over a meal, either 
breakfast or lunch, and we have to do that, and that helps. I 
do not mean to imply that the food is the incentive, but it 
does not take time out of your working day. You have that time 
anyway.
    Mr. Kolbe. It helps to make a more casual, informal 
setting.
    Mr. London. But the larger reason, and I would not 
underestimate the value of this, there is a tremendous desire 
on the part of creative professionals to network and to hear 
what each other are doing, to share information and anecdotes, 
and very frankly, in some cases, to meet people that you feel 
can offer you an opportunity, in some way, in the future. So I 
think if you can get a certain level of attendee at these 
events and make it known to other attendees that these people 
will be there, I think there is an incentive for a lot of 
people to come. And, again, judging by the things I have 
attended, that system works.
    Mr. Kolbe. When you sit down at one of those meetings, who 
are you representing?
    Mr. London. Me, personally? I represent DIC Entertainment, 
which is a producer.
    Mr. Kolbe. You would be at the same meeting, Ms. Kelly?
    Ms. Kelly. Chances are I would have organized it.
    Mr. Kolbe. You would have organized it.
    Ms. Kelly. Yes.
    Mr. Kolbe. Do they know, when they sit down with you, who 
you represent?
    Ms. Kelly. Oh, absolutely.
    Mr. Kolbe. Other than Mediascope. I mean, that you have a 
contract with ONDCP?
    Ms. Kelly. Yes.
    Mr. Kolbe. Or does this never come up? Do we try not to 
talk about that?
    Ms. Kelly. I do not know that we make a particularly big 
issue about it, but generally we will announce who has funded 
the event or what it is about, why we are bringing people 
together. And, also, we would be giving out some materials from 
ONDCP. So it is not hidden information.
    Mr. Kolbe. So it is not hidden. Have you run into 
resistance at these meetings, of people saying, ``You know, 
stop getting over in my turf. I am the creative person. I know 
what is needed here, what I want to do''?
    Mr. London. Surprisingly not. Because as I mention in my 
statement, creative people are extremely sensitive to that and 
want no part of it.
    Mr. Kolbe. I am just trying to understand how you tread 
that fine line there.
    Mr. London. It is a fine line. There is no question about 
it. But I think very much the nature of Mediascope, and I keep 
saying Mediascope because they have produced the most number of 
events that I have attended, and the nature of the 
organization, the way these events are publicized, explained 
and actually executed, have a real sense about them of not 
having an agenda and simply, ``Here is some information for you 
to use or not use as you choose.'' And that is not offensive to 
creative people.
    Ms. Goodrich. A lot of them are going to----
    Mr. Kolbe. Yes.
    Ms. Goodrich. I am sorry, Mr. Chairman.
    Mr. Kolbe. Sure. Please, please, any of you any time here.
    Ms. Goodrich. A lot of these people are going to be dealing 
with these issues anyway because they are real-life issues. 
They want to know how to deal with them appropriately, and that 
is what the ONDCP and the organizations that represent anti-
drug initiatives can tell them. So they are looking for 
information, what Mr. London is talking about. They are 
thirsty, and this affords them the opportunity to ask questions 
and get the kind of information that they can then parlay into 
some wonderful, creative thing that we will see on the screen.
    Mr. London. And it is very important that these meetings 
are nonthreatening, perceived as such and, in fact, are. 
Because all of us in Hollywood are aware of certain aspects of 
the Government trying to regulate us, trying to point fingers 
at us, trying to blame us for every ill the world knows. We are 
familiar with hearing that litany.
    Mr. Kolbe. Really? That has happened? I am shocked. 
[Laughter.]
    Mr. London. And so it is, for us, in a way refreshing to 
attend an event, where that is not what the event is about and 
where----
    Mr. Kolbe. And they truly are perceived that way, then, as 
nonthreatening, as that I am here from Washington to tell you 
what is good messages you should be doing? They are really 
perceived in that nonthreatening way?
    Mr. London. Well, I cannot speak for every creator. I am 
sure there are creators out there that are just absolutely dead 
set against hearing anything that has anything to do with 
Government, period. But by and large, certainly speaking for 
the children's programming community, yes, they are perceived 
as nonthreatening. Because, for example, Mediascope is not 
considered to be an arm of the Government. Mediascope, I 
understand to be a conveyor of information and nothing more, 
not a regulator.
    Mr. Kolbe. I am just getting warmed up here, but before I 
see if Mr. Peterson has some more, let me just ask one more 
question here.
    As I listened to your testimony earlier, a thought occurred 
to me. Is there a fundamental difference between the creativity 
that we do for programming for children as opposed to adults? 
Adults is truly entertainment, and you want to find out what 
they like, what hits their hot buttons and what they are going 
to watch. That is not quite the way we do it for children, is 
it? It is not purely entertainment.
    Mr. London. No, au contraire.
    Mr. Kolbe. It is?
    Mr. London. It has to be. It must work first as 
entertainment, A, because we function in a business environment 
that must bring us ratings, and B, even putting the ratings and 
the business aside, if your goal is to communicate to children, 
the first necessity is they have to be watching, and they have 
the same remote control that adults have, and the same other 
interests in the Internet and all sorts of things. So we are in 
a very, very, perhaps, more competitive environment for 
children's time and attention. So our programs must work first 
and foremost as entertainment, or no one will see them. It does 
no good to do a wonderfully do-good program and have nobody see 
it, and children do very much control their own viewing after 
about age, probably 3 or 4, they control their own viewing.
    Mr. Kolbe. Pure entertainment for children would be 
something like cartoons perhaps, or ``Sesame Street'' is 
something that has a lot of educational content.
    Mr. London. Correct. ``Sesame Street''----
    Mr. Kolbe. Is ``Sesame Street'' geared to the parent whose 
going to make the kid watch the----
    Mr. London. It is geared to very young children. What 
happens is after about age 6, there is a divergence in the way 
kids watch TV and their ability to sort of perceive and sense 
educational programs. So shows like ``Sesame Street'' and other 
preschool shows can have a lot of educational content in them, 
and young children find that entertaining. It is older kids, it 
is the 6 to 11s that is really the challenge to try to educate 
and entertain at the same time.
    Mr. Kolbe. Mr. Peterson.
    Mr. Peterson. Yes. I was just thinking here, since I have 
been listening, as we watched the films, I mean, I commend you 
for some pretty good work there. Is there anybody that could 
show me a film of where young people have had the wrong message 
on ABC or NBC or CBS or the movies? I cannot give you an 
example, but I know there have been many times my wife and I 
have been sitting there, and suddenly say, ``Boy, that is a 
terrible message for kids to see. That is a terrible example.'' 
You know, it is 7:30 at night or it is 8:00 o'clock, and that 
is a bad message.
    Is there somebody who rates, monitors and does film clips 
like that that--because you have picked out the ones you are 
proudest of, right? You give us the things you think have been 
very positive. Is there somebody who is watching regular 
programming, where people have really sent the wrong message?
    Ms. Kelly. Well, if I could speak to that, there is a study 
that you have, which was released last, I believe, March or 
April, ``Substance Abuse in Popular Movies and Music'', and 
this is a study that we did with ONDCP funding, and we looked 
at two years of the most popular movies, and we looked at two 
years of the most popular recordings, five different genres of 
music. And some of the statistics, I believe, that the General 
reported this morning, some of the media statistics come from 
here.
    There is no question that in here we saw a number of films 
and music recordings that just have a lot of depictions, lot of 
use, with absolutely no consequences. A lot of scenes of young 
people, say, drinking, but no consequences to it, or smoking in 
particular. Those were the two biggest problems that we saw.
    In January 2000 we will release a study that will look at 
prime-time television, about 170 episodes, and that will 
address the most popular shows among African-American, Hispanic 
and white teens.
    In the main, without that study, without having the data, I 
can say that the broadcast network we find in general is the 
most responsible area of media.
    Mr. Peterson. You made a statement that intrigued me, 
Robby, that you said you have been blamed for all the ills as a 
creator. I do not think any of us ever envisioned that young 
people would get as much of their education from television as 
they do, especially those that do not have a family structure. 
You know, the TV is turned on, and that is the baby-sitter. 
Television is their life. And I continue to meet young people, 
some of the smartest young people in the country today, but 
then I also meet young people that do not know anything about 
anything. I mean, they have not been schooled. They have not 
paid much attention to the educational process. They have just 
attended. They do not really have a family structure, and the 
television has really been a major part of their life, and I 
think that is why you have had more impact than you probably 
want to have. But when you have the balance in a life, you can 
watch some of that stuff, and it does not really bother you, 
because you have somebody reinforcing the other side. There are 
young people who have nobody reinforcing the other side. I 
guess that is the ones I worry about. How do we deal with that?
    Mr. London. Well, I absolutely agree with you, and I would 
say that in the years I have been doing children's television, 
I think 20 years ago creators were a lot more cavalier about 
what they did, and I think one of the biggest arguments that 
has helped to cause us to take our responsibilities more 
seriously and why you see so many more of us in Washington and 
you see voluntary guidelines such as I discussed, and the kinds 
of spots that ABC produced, I think the reason for that is very 
simple, and that is the acknowledgement that there are a lot of 
so-called latch-key kids out there that are watching television 
unsupervised. In the perfect world parents supervise their 
viewing, and I think with proper parental supervision or 
familial supervision, you could put almost anything on 
television, and I think a child would survive it, and would 
probably not lead to horrible behaviors. Without that 
supervision, you are absolutely right, and I think that is why 
all of us are more concerned about it. But I would say still I 
think there are other influences besides television, even in 
those homes without appropriate parental supervision. There are 
still schools. There are still communities. There are still the 
neighborhoods. There is peer pressure. There is other media 
besides television, frankly. So we are a little bit defensive 
about television being singled out as the cause of such things 
as the school violence recently, certainly that has been so----
    Mr. Peterson. You are just one of many contributing factors 
in my view.
    Mr. London. Certainly in my opinion, yes.
    Mr. Fried. If I could just add, at ABC we are very proud of 
the fact that we have a very stringent standards and practices 
operation, that reviews everything that goes on the air. I 
think I am correct in saying that our programming tries to be 
time-period appropriate. So that if it is early in the evening, 
it is aimed at a family audience, and we scrutinize programs 
for where they are going to run and the kind of content that we 
are going to put on the air, and we are always looking to 
compete, but we are not looking to push the envelope beyond 
what we think society is willing to accept.
    So I think when it comes to ABC, we are very careful about 
the kinds of programming that we put on the air. And if you are 
looking for the other side of those programs, you might be able 
to find them on occasion, but we think you would find them 
maybe when they were running in a more adult time frame, and 
not in a kids' frame, not in an 8:00 o'clock time frame, or an 
8:30 time frame or a children's program.
    Mr. Peterson. Would it be a positive thing to have a 
positive rating, like, you know, when you excelled, you know, 
``This network has done the most to send the right message?''
    Mr. Fried. Well, you know what we find? I am an advertising 
guy, so I can tell you what we found. When we put programming 
on that is unacceptable to society, we get no support for it. 
We may get a high rating because it attracted a lot of people 
for whatever the topic was, but you cannot get--advertisers who 
bail out of it right and left, so they are not very profitable 
for us.
    Mr. Peterson. That is good to hear.
    Mr. London. I would love to respond to the rating question 
if I could.
    Mr. Peterson. Sure.
    Mr. London. I think the value of ratings, unfortunately, is 
somewhat overstated, because the reality is, is that in 
households where there is somebody there to pay attention to 
the ratings and try to enforce them, those are the lowest risk 
households, as we just discussed. That is a family with parents 
that care and understand and are educated, and try to do the 
same for their children. The kids that are most at risk are 
those most likely not to pay any attention at all to the 
ratings.
    Mr. Peterson. Well, I meant like we would rate the networks 
and the movies as wholesome, give them a high score if they 
were----
    Mr. London. But who would pay attention? Who would that 
rating be directed to and who would pay attention to it is my 
question?
    Mr. Peterson. Yes, you are probably right. Thankyou.
    Mr. Kolbe. Thank you, Mr. Peterson.
    Ms. Kelly, you said that you thought the broadcast industry 
was the most responsible. That is an interesting comment. I 
mean there is lots of stuff that appears in print today, but I 
guess not very many kids read it. Is that what you meant, or do 
you think they are actually more responsible?
    Ms. Kelly. No. I was really referring to more electronic 
media. I was thinking of films, television, cable and broadcast 
television. Of all of those groups broadcast television is the 
only one that consistently has broadcast standards.
    Mr. Kolbe. We do not have anybody here today representing 
the music industry. It seems to me that that is one that is 
particularly difficult to reach. MTV does not use a soft match. 
They would only take the hard dollars. And I am wondering if 
you agree, and is that a significant way in which kids get 
messages about behavior, any kind of behavior if their music--
personally, I can never understand the words anyhow, and to me 
it is like listening to opera. I love listening to opera, but I 
never understand the words.
    Ms. Kelly. The music industry is a particularly difficult 
industry to try to reach with pro-social information. In the 
study that we did, we found that the biggest problem was in rap 
music. One of the things that we are doing now is actually 
strategizing about how to reach the music industry. The 
researchers that we had working on this study felt, from some 
of the focus group work that was done, that for a lot of young 
people, in music, more than any other area of the media, young 
people identify with the artist. And so if the artist has a 
problem with drugs or is known to use them, or has that kind of 
a reputation, that young people project drug use into their 
lyrics, even if it is not actually there. So it is a very 
complex area, and as I said, we are strategizing now about how 
to reach into that community.
    Mr. Kolbe. That is interesting. Your research suggested 
that 98 percent of the most popular movies--I do not know 
whether this was just movies or movies and broadcast TV----
    Ms. Kelly. No, that was movies.
    Mr. Kolbe. Just movies. Show some sort of substance use.
    Ms. Kelly. Correct.
    Mr. Kolbe. Do you define substance use as drugs, alcohol 
and tobacco?
    Ms. Kelly. Yes.
    Mr. Kolbe. Because--and I do not mean this laughingly, but 
there are serious food addiction problems, but since it is also 
necessary for life to sustain life, you do not include that, 
obviously.
    Ms. Kelly. No. And included in that number is both use and 
appearance.
    Mr. Kolbe. Use and appearance.
    Ms. Kelly. In other words, a bottle of beer could be on the 
bar in a film. That would be coded as an appearance.
    Mr. Kolbe. Appearance.
    Ms. Kelly. Then if somebody actually swallows it, that 
becomes use. So we differentiate between appearance and use.
    Mr. Kolbe. So a scene with a couple at dinner and a glass 
of wine in front of them, that is appearance and use, 
presumably, if they are drinking it.
    Ms. Kelly. Exactly.
    Mr. Kolbe. And yet, research also shows that only 22 
percent of the most popular movies depict illicit drug use. So 
there is a huge difference between the total amount of where we 
see some kind of use and those that have illicit----
    Ms. Kelly. Exactly.
    Mr. Kolbe. So how do we make the kinds of distinctions that 
we need to make between the legal substances, while they still 
may be bad, certainly in the case of tobacco. Nobody suggests 
there is anything that is redeeming there. In the case of 
alcohol, there is some evidence that there can be medicinal 
value to that in certain circumstances. So how do we make a 
distinction between those kinds of things that are legal, even 
if they are not necessarily good for you, and the illicit 
behavior where it is illegal?
    Ms. Kelly. Well, the way we approach the entertainment 
industry on these kinds of issues, is that we recognize that 
tobacco, alcohol and drugs are part of life, and that sometimes 
a story line or a particular character, that usage may be 
important to help define that character. It might be a story 
about somebody going through a substance abuse problem, or a 
character who is an alcoholic. So we do not in any way request 
people not include substances in their story lines. What we try 
to do is encourage them, when they include those substances, to 
provide some balancing information, perhaps consequences to 
that use, to somebody smoking a cigarette, or using a 
particular drug.
    And that was our concern with the study's findings, we saw 
an awful lot of use with absolutely no mention of any kind of 
consequences, and sometimes when the consequences were there, 
it was very difficult to tell if they were positive or they 
were negative.
    Mr. Kolbe. Mr. London, I think you made the comment that 
the evidence shows that children over 9 are adverse to getting 
their message from preaching. Can you expand a little bit on 
that?
    Mr. London. I hope I did not say evidence, because for me 
it was just in my experience and----
    Mr. Kolbe. I think you did say your experience, and that 
was going to be my question. Is there evidence? Do we have any 
evidence of that?
    Mr. London. You know, I am always the wrong person to ask 
about evidence because I am basically a writer. My job is to 
create and not to research.
    Mr. Kolbe. So your statement then is based on your own 
perceptions, anecdotal information, that kind of thing?
    Mr. London. Yes. And also, I have spent a lot of time 
consulting with experts over the years, psychologists, 
developmental experts, educators, and I have sort of 
synthesized a lot of the information I have gotten over the 
years, but I could not point in most cases to specific 
research.
    Mr. Kolbe. Ms. Kelly, would you agree with that statement?
    Ms. Kelly. Yes, I would agree. As a matter of fact, a 
conference we just did at the Academy of Television Arts and 
Sciences, we had somebody from the advertising side of things 
who actually did a report for the conference. Oneof the things 
he noted was the high percentage of young people that are watching 
shows not made for them, that do have control of that remote and do 
surf and watch programs not made for their age group.
    Mr. Kolbe. So the message has to be a much more subtle one 
that you get with that age group?
    Ms. Kelly. Very subtle.
    Mr. London. I will tell you one thing that sort of 
intuitively and indirectly has been demonstrated, and that is, 
kids are really into things that are cool. Kids tend to 
differentiate this is cool, this is not. And whatever message 
you are trying to get across, it is really important that kids 
believe that the message and the conveyor of that message is 
cool. And for whatever reason that it is, it is very hard to 
put your finger on what makes something cool and what does not, 
but when it is not cool, it is very hard to be effective. And, 
again, this is not based on research. This is based on sort of 
anecdotal experience and ratings and seeing how kids respond to 
television shows for 20 years.
    Mr. Kolbe. Your use of the word ``kids'' here means pre-
teen and teenager?
    Mr. London. I am pretty much referring to 2 to 11 from my 
specific experience. However, I have some experience with 
``tweens'' going up to about 14.
    Mr. Kolbe. A 5-year-old is into what is cool and not cool?
    Mr. London. Well, 5-year-olds less so; a 7-year-old is 
starting to get there, and by 8, yes, at least in the urban 
environment in which I deal.
    Mr. Kolbe. There was one other line along there that I 
wanted to ask, but now it slipped my mind. It may come back to 
me. Just a couple of last questions here for Ms. Goodrich and 
Mr. Fried here.
    Can you describe a little bit about the decision process 
you go into at the network on trying to decide whether you are 
going to try to satisfy your content, satisfy your match I 
guess, through a media buy or through the programming content?
    Mr. Fried. I will try and answer that for you. I think at 
ABC we first had to look at what the match would be in terms of 
PSAs, because the content is more of a questionable thing about 
how much content we have, particularly going in the first year, 
knowing what we would be able to put on the air in that way. So 
we really had to go back and examine our inventory and what the 
company wanted to do, and we came up with the conclusion that 
we could afford to do the kind of--for the kind of commitment 
we would get, we would be willing to take more inventory and 
put it into public service match. And we committed to making 
that match on an equal basis with the hard match, I think you 
called it before.
    And then we did everything we could to ramp up the company, 
and sent the company to do the other. But the first commitment 
had to be--in our second year, it operated the same way. We 
first had to determine whether we could cover the dollar 
commitment in PSAs, and then if we could assure ourselves that 
we had the inventory put aside, that we could cover that, we 
would then move to incent the community to do more. But we 
cover internally basically the idea that we are going to first 
match with PSAs. So that is how we go about doing it.
    Mr. Kolbe. Are most of your entertainment programs, the 
sitcoms and other entertainment shows now, bought 
independently? Are the scriptwriters, the people writing them 
independent or are they within ABC? We have freelancing, I 
guess is what I am trying to say.
    Mr. Fried. We have a lot of owned product now, and we have 
a lot of product that still we get from outside buyers, but the 
creative community is the creative community. They are not 
owned by ABC or the Walt Disney Company.
    Mr. Kolbe. No, I understand. I guess where I was going with 
that question is, at your conferences, it includes both 
independent scriptwriters and people that work for networks; is 
that correct?
    Ms. Kelly. Absolutely, yes.
    Mr. Kolbe. Is there any difference in the kinds of 
reactions that you are finding between those that are within 
the--that are working for somebody, getting a paycheck from ABC 
as opposed to somebody that is a freelance?
    Ms. Kelly. No, not at all. As a matter of fact, they switch 
all the time too, so one season they could be independent, and 
one season they would be on staff.
    Mr. Kolbe. I see, yeah.
    Mr. Fried. I think we were--when we held our big conference 
with General McCaffrey, we were surprised at the participation 
that we got. We sent out invitations. We wanted the creative 
people to come, and I can tell you that everybody from ABC that 
was in the room was surprised at the turnout that we got 
because these people just do not show up just because we say 
so. But they showed up because they were interested, and I do 
not think they felt any obligation to do it just because it was 
us. So I think they wanted to be there.
    Mr. Kolbe. That was going to be my next question. you have 
not experienced any kind of negative feedback then from your 
creative people saying, ``What are you doing telling us about 
conferences to talk about content?''
    Mr. Fried. If anything, I think we received feedback that 
they wished it would have been more targeted about this or more 
targeted about some different way, and maybe less of this 
research stuff, and more telling us a better way to tell the 
story than was executed in this first meeting, not telling them 
what to do.
    Mr. Kolbe. Go ahead.
    Mr. London. I would just say it is important to remember 
there is no compulsion to use the information we are given, so 
it is a pretty unreasonable position to say we do not want 
information.
    Mr. Kolbe. And you make that very clear, that nobody is 
being told to use this.
    Ms. Kelly. And also, as the person who organizes some of 
these events, they typically run maybe two hours. They are not 
long. TV people are very busy. They have very busy days, and as 
Mr. London stated, generally we can get them in the morning 
before they go to work or when they take a midday break. And we 
will bring in experts who can talk about a whole variety of 
issues, because every show has something different that they 
might be interested in tackling. If you are a medical show, you 
have one area of interest. If you are a law and order show, you 
have another. If you are a family sitcom and you have a couple 
of teenagers in the show, your interest is something else.
    And so what we try to do and what we are now focusing on is 
creating some forums for the staffs of shows that work in 
particular genres of television.
    Mr. Kolbe. Okay. So this is follow-up to what Mr. Fried was 
saying, is they want more targeted kind of information.
    Ms. Kelly. That is right. That is right.
    Mr. Kolbe. Obviously, your conferences are much more 
structured than a congressional hearing, which tend to drag on. 
I can tell that.
    It sounds to me like all of you agree that the system that 
we have got in place here with ONDCP and both the system of the 
match and the way in which we impart the information to the 
creative people is working. Is that correct? Would you all 
agree with that?
    Mr. Fried. Right.
    Ms. Goodrich. Yes.
    Mr. London. Yes.
    Ms. Kelly. Yes.
    Mr. Kolbe. You are satisfied with the way it is working.
    And, finally, back to ABC. We are constantly hearing on the 
floor of the House in Congress, politicians talking to 
executives and to media people about the bad messages that are 
being conveyed through the media to kids, whether it is 
violence, drugs, substance abuse of one sort or another. Is 
this a bad rap the networks and the media is getting here?
    Mr. Fried. I will be happy to say I think it is a bad rap 
for ABC. I do not want to speak for anybody else, but I think 
all of----
    Mr. Kolbe. Would you like to separate yourself from the 
others?
    Mr. Fried. No, but the broadcast networks all have 
standards and practices operations. They all scrutinize their 
programming, and they all come up with positions for 
themselves.
    I think our position has been that we are very careful 
about what we put on the air, and we are very careful about 
what time things go on the air that reach the audiences that we 
reach, and I think it would be unfair to categorize that we are 
just willy-nilly programming things that are inappropriate for 
the people that are watching. I think that is exactly what we 
are doing. We are time period appropriate, and we are 
appropriate to the kind of audience that we think watches ABC, 
which is family and teens, and the kind of audience that we 
want to reach.
    Mr. Kolbe. Ms. Goodrich.
    Ms. Goodrich. It is pretty much the same thing. I mean, 
there are watchdog groups. Mr. Peterson was asking earlier 
about who judges these things. There are watchdog groups who 
keep an eye in whether or not we are doing what we say we are 
supposed to do. And ABC generally comes up smelling pretty good 
out of those. There is the Kids Nets from down here. I cannot 
think of the names of a bunch of them right now, but we feel 
very strongly from our internal structure, as well as the 
external people, we do what we are supposed to be doing.
    Mr. Kolbe. Yes. There are a bunch of the watchdog group, 
and I guess that is why I was going with that, because they 
have been--and I cannot tell you because I have not seen their 
data recently, how specifically ABC ranks there, and I will 
take your word for it that you come out better on that. But 
they have been generally fairly critical of the entertainment 
industry. And I am wondering if any of the others of you, Mr. 
London, Ms. Kelly, would agree that there is a change taking 
place. One of the things that is most critical again--now, let 
us leave aside purely the drugs and even substance abuse--is 
that TV generally has depicted what society regards as bad 
behavior, violence, drug abuse, substance abuse of one sort or 
another, without consequences to it. Is that changing in the 
way our media now is beginning to show that there are 
consequences? Are there more consequences being shown now?
    Mr. London. I think this panel is heavily weighted towards 
television, and I think it absolutely is true in television. I 
think in general television has, I would say, taken more 
responsibility perhaps than other media. I think I can only 
speak for television.
    Mr. Kolbe. Just let me clarify that. Has always taken more 
responsibility or is taking more responsibility? There is a 
change going about.
    Mr. London. Yes. I think it has absolutely been increased 
in the last ten years, just because of more awareness of 
television's impact and more research coming to bear, and it is 
become--frankly, we used to argue that television could not be 
blamed for things, and there was no evidence that people got 
behaviors from watching television, particularly kids, but 
frankly, evidence has come to light in recent years, that it 
has been fairly irrefutable, and it is difficult to deny any 
more our role, that we have a role in people's behavior.
    Mr. Kolbe. Thank you. I want to thank all of our panelists 
today. This has been, for me, a fascinating hearing, and I wish 
all of my colleagues could have been here today, but I can 
assure you, we are going to share this information with them, 
and I think it helps us a great deal as we go into the next 
regular budget cycle as we talk about this issue. You have been 
extraordinarily I think frank, candid, forthcoming, using all 
those words that we use in ``diplomatic-ese.'' But, it really 
has been very, very helpful to us today. And I know you have 
extremely busy schedules, and I appreciate very much your 
taking time out of your day to be here, and traveling the 
distance that most of you did to be with us here today. So I am 
very grateful to you for your participation in this hearing.
    And I thank you again very much, and since there is no one 
else here to make a further comment, the Subcommittee will 
stand adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
David, Susan.....................................................    37
Dyak, B.L........................................................   131
Fried, Lawrence..................................................    51
Goodrich, Patricia...............................................    51
Kelly, Marcy.....................................................    51
London, Robby....................................................    51
McCaffrey, Gen. Barry............................................     1

                                <greek-d>

</pre></body></html>
